                                                                            Issue Date
                                                                                     June 1, 2012
                                                                            Audit Report Number
                                                                                    2012-FW-1008




TO:            Donald J. Lavoy, Deputy Assistant Secretary for Field Operations, PQ

               Dan Rodriguez, Director, Office of Public Housing, 6EPH

               Judith Garza, Director, Program Support Division, PE

               Craig Clemmensen, Director, Departmental Enforcement Center, CACB

               //signed//
FROM:          Gerald R. Kirkland
               Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: The Management and Board of Commissioners of the Housing Authority of the
           City of Port Arthur, TX, Failed To Exercise Their Fiduciary Responsibilities


                                          HIGHLIGHTS

    What We Audited and Why

                 We audited the financial and procurement operations of the Housing Authority of
                 the City of Port Arthur, TX. We conducted this audit due to deficiencies
                 identified in a prior audit. 1 Our objectives were to determine whether the
                 Authority had sufficient financial and procurement controls to ensure it used U. S.
                 Department of Housing and Urban Development (HUD) funds in accordance with
                 laws, regulations, and policies. This review included assessing whether the
                 internal control environment was designed to provide reasonable assurance about
                 the achievement of the Authority’s mission, goals, and objectives. Also, as part
                 of the assessment of financial controls, we reviewed the Authority’s capital funds
                 to determine whether the Authority complied with its consolidated annual
                 contributions contract.
1
     Audit Report 2011-FW-1005, The Housing Authority of the City of Port Arthur, TX, Mismanaged Its Recovery
     Act Funding, issued January 25, 2011
What We Found

         The Authority’s management and board of commissioners failed to establish a
         control environment designed to provide reasonable assurance about the
         achievement of its mission, goals, and objectives. They failed to enact policies
         and procedures to ensure the integrity of financial operations and compliance with
         procurement requirements, even after repeated findings regarding financial and
         procurement weaknesses. Instead, they abused the Authority’s charge card
         accounts and received ineligible and unsupported compensation. Also, the
         Authority’s resident commissioner was not eligible according to HUD and State
         rules. These conditions occurred because the Authority’s management and board
         failed to exercise their fiduciary responsibilities.

         The Authority also improperly administered its public housing Capital Fund
         program and drew down $469,359 in unused funds that it had not expended.
         These conditions occurred because management had no clear plan for how it
         would spend its capital funds. In addition, management and the Authority’s
         attorneys imposed a scope limitation on the audit, which limited our ability to
         completely assess the Authority’s operations.

         As a result of these conditions, the Authority incurred questioned costs of more
         than $5.9 million and was in violation of its annual contributions contract. Also,
         the Authority’s lack of controls put it at substantial risk for fraud, errors, and
         financial misstatements.


What We Recommend

         We recommend that HUD determine if the Authority was in substantial default of
         its annual contributions contract and take appropriate administrative actions
         against its executive director and commissioners. We also recommend that HUD
         require the Authority to adopt and implement policies and procedures to control
         its financial and procurement operations, repay $462,274 in ineligible costs, and
         support or repay almost $5 million in unsupported costs to HUD. We further
         recommend that HUD recapture $469,359 in capital funds.

         For each recommendation without a management decision, please respond and
         provide status reports in accordance with HUD Handbook 2000.06, REV-4.
         Please furnish us copies of any correspondence or directives issued because of the
         audit.




                                          2
Auditee’s Response

           We issued a draft report to the Authority and HUD on April 19, 2012. We held
           an exit conference with the Authority on May 3, 2012, and requested written
           comments by May 7, 2012. At the Authority’s request, we extended the date to
           provide comments until May 14, 2012. In its May 14, 2012 response, the
           Authority generally disagreed with the report. We made some revisions to the
           report language based on the Authority’s comments, but did not revise the overall
           conclusions and recommendations. The complete text of the auditee’s response,
           along with our evaluation of that response, can be found in appendix B of this
           report.




                                           3
                            TABLE OF CONTENTS

Background and Objectives                                                          5

Results of Audit
      Finding 1: The Authority’s Management and Board of Commissioners Failed To   7
                 Exercise Their Fiduciary Responsibilities
      Finding 2: The Authority’s Management Failed To Enact Financial Controls     17
      Finding 3: The Authority Failed To Comply With Procurement Requirements      24
      Finding 4: The Authority Improperly Administered Its Capital Funds           31

Scope and Methodology                                                              34

Follow-up on Prior Audits                                                          37

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use               38
   B. Auditee Comments and OIG’s Evaluation                                        39




                                            4
                        BACKGROUND AND OBJECTIVES

The Housing Authority of the City of Port Arthur is a public body established pursuant to the
laws of the State of Texas for the purpose of engaging in the development, acquisition, and
administration of a low-income housing program. The policy-making body of the Authority is
its board of commissioners. It selects and employs the executive director, who is responsible for
the efficient day-to-day operations of the Authority. The Authority is fiscally independent of the
City of Port Arthur and is not considered a component unit of the City; however, the mayor of
Port Arthur appoints the Authority’s five-member board of commissioners. At least one of the
commissioners must be a resident who is directly assisted by the Authority. 2

The Authority receives capital funds annually via a formula grant from the U. S. Department of
Housing and Urban Development (HUD). The Authority may use its capital funds for
development, financing, modernization, and management improvements for its public housing
developments. It received $582,663 and $569,582 in formula capital funds in fiscal years 2009
and 2010, 3 respectively. It also received a $725,546 public housing Capital Fund grant under the
American Recovery and Reinvestment Act of 2009 and a $230,865 Replacement Housing Factor
grant in fiscal year 2010. It received HUD public housing operating subsidies of $1.26 million in
2009 and $1.8 million in 2010. The Authority was required to administer its public housing
program pursuant to its consolidated annual contributions contract. The annual contributions
contract is a contract between HUD and the Authority containing the terms and conditions under
which HUD assists the Authority in providing decent, safe, and sanitary housing for low-income
families.

Hurricane Rita damaged the Authority’s public housing developments in 2005. The Authority
later demolished its 152-unit Gulf Breeze public housing development and rebuilt 86 public
housing units on the same site using Community Development Block Grant (CDBG) Disaster
Recovery funds provided through the State of Texas. The new development, Lakeview Palms,
opened for occupancy in 2010. The Authority has a second public housing development, Carver
Terrace, with 204 units that it plans to demolish and rebuild on an alternate site. It also has 12
single-family homes that are scattered-site public housing units.

The Authority administered 2,620 housing choice vouchers with annual contributions from HUD
in excess of $13 million. It also administered 82 vouchers under the Disaster Housing
Assistance Program (DHAP) and 1,118 under DHAP Ike during the audit period. Both DHAP
programs were funded through the Federal Emergency Management Agency (FEMA) and
overseen by HUD. The DHAP programs provided monthly rental assistance, case management
services, and security deposit and utility deposit assistance for certain families displaced from
their homes by Hurricanes Katrina, Rita, Ike, or Gustav.




2
    24 CFR (Code of Federal Regulations) Part 964, Tenant Participation and Tenant Opportunities in Public
    Housing
3
    The Authority’s fiscal year is October 1 through September 30.


                                                       5
In addition to its HUD-funded public housing and voucher programs, the Authority’s financial
statements reflected multiple related entities:

    •   The Port Arthur Affordable Housing Corporation was formed to promote economic
        development and provide decent and affordable housing for low- and moderate-income
        residents. It owned 100 percent of three limited liability corporations that served as
        general partners in three limited partnerships that operated separate low-income housing
        tax credit projects in Port Arthur. For its participation, the Authority received at least
        $222,160 in developer fees during 2009 and 2010.
    •   The Port Arthur Housing Opportunities Corporation was organized as an instrumentality
        of the Authority with the same general purpose as Port Arthur Affordable Housing. It
        owned more than 99 percent of a limited partnership that owned and operated a
        multifamily project in Port Arthur. The project was funded with CDBG Disaster
        Recovery funds. During 2009 and 2010, the Authority received $278,000 for developer
        fees.
    •   O.W. Collins GP, LLC, a for-profit entity, operated a low-income housing tax credit
        project.
    •   Villa Main Housing Associates GP, LLC, a for-profit entity, was the general partner of a
        partnership that owned and operated a 140-unit low-income housing tax credit project
        that had a project-based Section 8 contract with HUD.

Additionally, the Authority owned a multifamily project, Valley View Estates (formerly known
as Gulf Breeze II Estates), a mixed-income development that received no Federal subsidies. The
Authority developed the project using CDBG Disaster Recovery funds.

In addition to the developer fees reflected above, the Authority received $894,460 in developer
fees for Gulf Breeze I and II. Therefore, it received more than $1.39 million in developer fees
during 2009 and 2010. 4 Developer fees received for the projects under Port Arthur Affordable
Housing were posted to a general ledger account called PAAH (Port Arthur Affordable
Housing). The developer fees received for the project under the Port Arthur Housing
Opportunities Corporation and for Gulf Breeze I and II were posted to a general ledger account
called Housing Opportunities Fund.

The missions of the Authority and its related entities were to promote adequate and affordable
housing, economic opportunity, and a suitable living environment free from discrimination for
Port Arthur residents.

Our audit objectives were to determine whether the Authority had sufficient financial and
procurement controls to ensure it used HUD funds in accordance with laws, regulations, and
policies. Also, as part of the assessment of financial controls, we reviewed the Authority’s
capital funds to determine whether the Authority complied with its annual contributions contract.




4
    Total developer fees: $222,160 + 278,000 + 894,460 = $1,394,620


                                                     6
                                  RESULTS OF AUDIT

Finding 1: The Authority’s Management and Board of Commissioners
Failed To Exercise Their Fiduciary Responsibilities
The Authority’s management and board of commissioners failed to establish a control
environment designed to provide reasonable assurance about the achievement of its mission,
goals, and objectives. They failed to enact policies and procedures to ensure the integrity of
financial operations (finding 2) and compliance with procurement requirements (finding 3), even
after repeated audit findings regarding financial and procurement weaknesses. Instead, they
abused the Authority’s charge card accounts and received ineligible and unsupported
compensation. Further, management failed to adequately plan and carry out capital improvement
activities (finding 4). These conditions existed because the Authority’s management and board
failed to exercise their fiduciary responsibilities. Also, by restricting access to records, facilities,
and personnel, management and the Authority’s attorneys imposed a scope limitation on the
audit. As a result of their actions, the Authority incurred questioned costs of more than $5.9
million and was in violation of its annual contributions contract. In addition, the Authority’s
lack of controls put it at substantial risk for fraud, errors, and improper payments.


 Management Failed To Establish
 a Proper Control Environment

                Internal controls include the processes and procedures for planning, organizing,
                directing, and controlling program operations as well as the systems for measuring,
                reporting, and monitoring program performance. Management is responsible for
                establishing a control environment that sets the tone of an organization. This “tone
                at the top” affects the integrity and ethics of the organization as a whole. Effective
                internal control is essential to provide reasonable assurance about the achievement of
                the organization’s mission, goals, and objectives.

                Contrary to these requirements, Authority management failed to establish formal
                controls, including written policies and procedures, over its operations.
                Management also failed to establish a control environment to instill integrity and
                ethics in achieving its mission. Further, the Authority’s board did not hold
                management accountable for these standards, and the commissioners failed to hold
                themselves to a high standard of integrity and fiduciary responsibility.




                                                   7
    Management and the Board
    Abused the Authority’s Charge
    Cards


                The Authority did not properly safeguard or restrict access to its charge cards;
                incurred unreasonable, unnecessary, and imprudent charges; and charged excessive
                and unsupported travel costs. Contrary to its own procurement policy and HUD’s
                procurement handbook,5 the Authority did not have controls and procedures in place
                to safeguard its charge cards. It was required to adopt reasonable safeguards and
                procedures to ensure charge cards were used only for intended purposes.
                Additionally, it should have limited the types and amounts of purchases that were
                permitted with the cards. Also, it should have had guidelines for selecting
                merchants and vendors, tracking purchases, and card payment and settlement
                procedures. The Authority charged in excess of $199,000 to its American Express
                charge card account, $23,205 to its gasoline charge card account, and $5,352 to its
                Lowe’s charge card account during the audit period.

                The Authority Did Not Safeguard or Restrict Access to Its Charge Cards
                The Authority did not maintain control of its charge cards to ensure that only
                authorized personnel used the cards. The executive director acknowledged allowing
                five employees and a contractor to use his Authority-issued American Express card.
                Documentation also reflected that unauthorized personnel used the Authority’s
                gasoline charge cards. The director of finance stated that he had difficulty obtaining
                receipts to support charges to the Authority’s charge cards and preferred to limit the
                number of cards rather than trying to get receipts from individuals for many cards.
                However, allowing multiple users of the same card not only violated the Authority’s
                cardholder agreement,6 it prevented the Authority from holding specific cardholders
                accountable for their charges.

                The Authority Permitted Unreasonable, Unnecessary, and Unsupported Charge
                Card Transactions
                Many of the American Express charges did not appear to fulfill a housing
                authority mission or business purpose, and the Authority did not always maintain
                or provide support for the charges. Instead, the charges appeared to benefit the
                Authority’s commissioners, management, employees, and contractors. In
                addition, management did not consistently approve or indicate review of the
                charges on the card.

                Federal regulations provide grantees with guidance regarding allowable costs. To
                be allowable, costs must be necessary and reasonable. A cost is reasonable if, in
                its nature and amount, it does not exceed that which would be incurred by a
                prudent person under the circumstances prevailing at the time the decision was
                made to incur the cost. The question of reasonableness is particularly important

5
     HUD Handbook 7460.8, REV- 2, Procurement Handbook for Public Housing Agencies
6
     Its American Express card-holder agreement


                                                   8
                 when governmental units or components are predominately federally funded.
                 Further, it must be determined whether the individuals concerned acted with
                 prudence in the circumstances, considering their responsibilities to the
                 governmental unit, its employees, the public at large, and the Federal
                 Government.

                 Table 1 contains selected egregious items charged to the Authority’s American
                 Express charge card. These charges were not necessarily all paid with Federal
                 funds, however, they are examples of the types of charges on its charge card.

                 Table 1: Selected charges from the American Express charge card
                  Charge                           Date(s)       Amount        Explanation (if any)
                  Amazon.com                       Various             $2,943
                  CASA                             04/07/2009             500 Charitable contribution
                                                   03/22/2010             500
                  Enterprise Rent a Car            11/10/2010           1,987 Rental car for resident commissioner
                  Greater Port Arthur Membership   01/26/2009           1,000 $750 for “Chairman’s Table”
                                                   01/19/2010             750
                  Holiday Inn Port Arthur          01/28/2009           1,493 Handwritten note stated, “Christmas.”
                                                                               American Express statement reflected,
                                                                               “arrive 12/12/2008 depart 01/27/2009.”

                                                   12/22/2009             2,694   Handwritten note indicated, “Christmas
                                                                                  Party.”
                                                                                  American Express statement reflected,
                                                                                  “arrive 12/21/2009 depart 12/21/2009.”
                  Jason’s Deli                     Various                2,250
                  Lezet Catering                   Various                2,903
                  Various florists and Edible      Various                  827
                  Arrangements
                  Walmart                          Various              14,624
                  Woodlands Conference Center      09/09/2010            4,135
                  Total                                                $36,752


                 In addition, the American Express charge card statements reflected thousands of
                 dollars spent on items such as groceries, grilling supplies, party supplies, local
                 restaurant charges, and gasoline. The Authority incurred $8,410 in ineligible and
                 $47,916 in unsupported charges that it allocated to its HUD programs and at least
                 $9,595 in travel costs incurred by the commissioners that it charged to its non-
                 HUD programs. 7 Further, the Authority failed to provide receipts for Lowe’s card
                 charges of $1,300 and gasoline card charges of $6,770. Not only were these
                 charges unreasonable, they did not appear to support the Authority’s or its related
                 entities’ missions.

                 Travel Charged to American Express Was Excessive and Unsupported
                 The Authority charged an excessive amount of travel to its American Express charge
                 card, which it could not support. Its statements reflected at least $66,000 in travel
                 charges for its commissioners, management, employees, and contractors. Despite
                 repeated requests, the Authority did not provide sufficient documentation to support
                 the purpose of the travel. The limited documentation the Authority provided

7
    Includes $5,168 for the resident commissioner, $1,987 of which was for the rental car in table 1


                                                         9
                 included various course flyers, class agendas, and recent printouts from the Internet
                 regarding training classes offered by housing-related entities. General information
                 about course offerings did not support the purpose of individual trips, nor did it
                 document that anyone from the Authority attended any training.

                 In response to questions regarding travel, the board chairman admitted that
                 Authority staff had received an inordinate amount of training; however, he also
                 stated that staff should be very knowledgeable in program and record-keeping
                 requirements. Yet, Authority staff failed to exhibit this knowledge during the audit.

                 In addition to excessive and unsupported travel, the charges reflected other
                 questionable travel transactions. For example, in 2009 the Authority paid $688 in
                 “cancellation” and “no show” fees for luxury hotel rooms for the executive director
                 and the board chairman. The documentation did not provide an explanation for not
                 cancelling the reservations in a timely manner. While the amounts were not
                 necessarily material, they showed the board’s and management’s lack of regard for
                 responsible fiscal administration and their disregard for their fiduciary duties.

                 HUD should require the Authority to repay $8,410 in ineligible charges and
                 support or repay $55,986 in unsupported charges identified. HUD should also
                 require the Authority to implement controls over its charge cards, including a
                 policy which emphasizes that only the authorized cardholder may use an
                 Authority charge card; limits the types and amounts of purchases permitted with
                 the cards; and provides guidelines for selecting merchants and vendors, tracking
                 purchases, and card payment and settlement procedures.

    The Authority Paid the
    Executive Director for Unused
    Leave in Violation of Its
    Personnel Policy

                 In violation of its own personnel policy, the Authority paid the executive director
                 $51,821 8 for accrued sick leave from August 2010 through December 2011. As
                 shown in table 2, this amount included $33,9849 paid on October 15, 2010, which
                 the Authority’s attorney asserted was for unused sick leave. However, payroll
                 documents did not show the payment as sick leave, and the Authority did not reduce
                 the executive director’s accrued leave balances. The Authority’s leave policy
                 prohibited paying employees for unused sick leave. Thus, this compensation was
                 unsupported.




8
    The $51,821 was gross pay to the executive director. The amounts in table 2 include the Authority’s total
    payroll expenses, which included the employer’s portion of payroll taxes.
9
    Ibid


                                                        10
        Table 2: Allocation of executive director’s leave payments
                                     Housing                                                 Other
                       General        Choice         Capital      Housing                  programs        Grand
            Date         fund        Voucher          Fund     opportunities   HUD total     total          total
          12/7/2011      $1,058          $2,925         $622          $1,214      $5,819         $405         $6,224
          2/10/2011        1,123          3,104           660          1,288       6,175           429         6,604
         10/15/2010        5,861         16,204         3,448          6,723      32,236        2,241         34,477
          8/19/2010        1,019          2,816           599          1,168       5,603           390         5,993
              Totals     $9,061         $25,049        $5,329        $10,394     $49,833       $3,465        $53,298


                  In September 2008,10 the former board chairman executed an employment contract
                  with the executive director that provided a salary of $144,733 plus benefits as well
                  as the right to be paid at his discretion for unused annual and sick leave. Two years
                  later, in September 2010, the incumbent board chairman executed a new
                  employment agreement that increased the executive director’s salary to $154,865
                  and increased the number of annual and sick leave hours he accrued and could cash
                  out.

                  HUD should determine whether the payments to the executive director for unused
                  sick leave were allowable and properly accounted for and if indicated, require the
                  Authority to reimburse HUD for the $49,833 allocated to its programs.

The Resident Commissioner
Was Ineligible, and the
Commissioners Received
Prohibited Compensation

                  In violation of both HUD and State requirements, the Authority allowed an
                  ineligible person to serve as its resident commissioner and improperly compensated
                  its commissioners. HUD required the Authority to have at least one resident
                  commissioner on its board. The resident commissioner had to be directly assisted,
                  meaning being a public housing resident or a recipient of housing assistance in the
                  voucher program. 11 State law also required that at least one commissioner be a
                  tenant of a public housing project over which the Authority had jurisdiction.
                  Further, State law states that a commissioner of a housing authority may not
                  receive compensation for service as a commissioner. 12




10
     Although he had worked at the Authority as executive director since July 2003, he did not have an employment
     contract before September 2008.
11
     Direct assistance does not include State-financed housing assistance or Section 8 project-based assistance. The
     Authority said its resident commissioner lived in one of its non-HUD properties.
12
     A commissioner is entitled to receive reimbursement for the necessary expense, including traveling expenses,
     incurred in the discharge of duties as a commissioner.


                                                          11
The Resident Commissioner Was Ineligible
The resident commissioner was not eligible under Federal and State requirements.
The Authority’s resident commissioner was not directly assisted and was, therefore,
ineligible. The executive director stated that the board chairman identified the
resident commissioner and recommended the mayor appoint that individual. The
resident commissioner had previously been a public housing tenant but moved out
without notice in August 2004 while owing the Authority $1,692, which remained
unpaid as of December 2011.

The Authority Improperly Compensated the Commissioners
The Authority improperly compensated its commissioners with both cash and
noncash items. It paid the resident commissioner a monthly stipend of $200 from
April through November 2010 in violation of State law. During the audit period, the
Authority also provided its commissioners with noncash compensation in the form
of mobile phones, wireless aircards, laptop computers, netbook computers, wireless
printers, software, and various peripheral devices costing more than $36,000. The
Authority’s board had five commissioners at any given time; however, only the
resident commissioner position became vacant and was later filled during the audit
period. Yet, the Authority purchased 14 laptop computers and 5 netbook computers
during the review period that it designated for commissioners. The Authority’s
attorney asserted that rather than requiring departing commissioners to return the
equipment, the Authority allowed the commissioners to keep the equipment. The
attorney indicated that the Authority considered this equipment virtually worthless
when the commissioners left. This rationale did not explain the purchase of 14
laptop computers for 6 individual commissioners during a 2-year period.

The Authority also paid $1,050 in HUD funds to a local charter school during the
audit period. It recorded the expenditures as “Other Sundry Expense-Mgmt” in its
general fund. Public records showed the board chairman was on the board of the
charter school. No clear program-related purpose existed for the payments. Such
gifts of noncash compensation and the apparent conflict of interest created the risk
that commissioners would not act impartially or in the Authority’s best interest.

The Authority should cease all payments to the commissioners and on their behalf
except for necessary expenses incurred in the discharge of their duties as
commissioners. In addition, HUD should encourage the Authority to recover the
equipment the Authority provided to the commissioners. Further, HUD should
direct the mayor to appoint an eligible resident commissioner to the Authority’s
board and encourage the mayor to evaluate the effectiveness of the board and
remove and replace commissioners as appropriate.




                                  12
     The Authority Did Not Properly
     Administer Fees Earned from
     its CDBG and Tax Credit
     Development Projects


                   The Authority did not properly administer fees earned from its CDBG and tax
                   credit development projects. It had multiple projects developed under the CDBG
                   Disaster Recovery and low-income housing tax credit programs. The Authority
                   received a significant amount of funds from these projects, 13 as reflected in its
                   general ledger and financial statements. The Authority indicated that it
                   considered these funds to be “non-Federal” and outside the scope of Federal
                   audits.

                   Both the CDBG and tax credit programs were intended to benefit lower income
                   households. The tax credit program allocates billions of dollars to State and local
                   agencies to issue tax credits for the acquisition, rehabilitation, or new construction
                   of rental housing targeted to lower income households. The CDBG Disaster
                   Recovery grants were intended to benefit primarily low-income residents in and
                   around communities that had experienced a natural disaster. The funds were
                   intended for recovery efforts that involved housing, economic development,
                   infrastructure, and prevention of further damage to affected areas. In addition,
                   Federal guidance defines amounts earned on CDBG disaster grants as program
                   income that may only be used for additional disaster recovery activities. 14
                   Further, the mission of the Authority is to promote adequate and affordable
                   housing, economic opportunity, and a suitable living environment free from
                   discrimination.

                   Contrary to the intended purposes of the programs and the Authority’s own
                   mission, the funds appeared to have been used for expenses that benefited the
                   Authority’s commissioners, management, and employees. Specific items noted
                   during the audit included thousands of dollars spent on unnecessary equipment for
                   commissioners, parties, excessive travel, local restaurant charges, and gifts. The
                   Authority has a fiduciary responsibility to its residents, the public, and the Federal
                   Government to administer its programs and funding in a manner that promotes its
                   missions.




13
      It appeared the Authority received these funds in the form of “codeveloper” fees.
14
      Federal Register Notice Vol. 71, No. 147 issued Tuesday, August 1, 2006, Waivers Granted to and Alternative
      Requirements for the State of Texas’ CDBG Disaster Recovery Grant Under the Department of Defense
      Emergency Supplemental Appropriations To Address Hurricanes in the Gulf of Mexico, and Pandemic
      Influenza Act, 2006


                                                        13
Management and the Board
Were Aware of Problems

           The Authority’s financial statement audits repeatedly contained findings regarding
           financial and procurement problems, including the Authority’s charge cards.
           Therefore, both the Authority’s management and its board were aware of the
           problems. Although management submitted corrective action plans to address the
           deficiencies, the repeated findings indicated that management failed to take
           corrective action and the board did not ensure that management enacted the needed
           controls.


Authority Management and its
Attorneys Imposed a Scope
Limitation

           The Authority imposed scope limitations that impaired the audit in two ways.
           First, the Authority limited auditor access to staff, records, and data. Second, the
           Authority provided incomplete records, particularly for procurement. Both
           situations limited auditors’ ability to understand the control environment and the
           substance of the Authority’s financial and procurement activities. Auditors made
           specific requests to meet with staff and observe the retrieval of procurement
           documents for review, which the Authority disregarded. The Authority did not
           provide all of the documentation requested, even after requests for status updates,
           and refused to provide employee data on the advice of its attorney. Because of
           the Authority’s lack of cooperation, we issued an OIG administrative subpoena
           and then a demand letter to obtain materials necessary to conduct the audit. The
           Authority did not fully comply with either requirement that it produce data and
           records. Further, when it allowed auditors to interview staff, it ensured that a
           representative of management or its attorney was present. It also provided
           documentation and answers to auditors’ inquiries through its attorneys in outside
           law firms.

           Because of the scope limitation, auditors were unable to complete planned audit
           work or draw conclusions about the eligibility of all expenses charged to HUD
           programs. Auditors disclosed in the body of the findings what data or information
           the Authority failed to provide and how it impacted the resulting conclusions and
           recommendations. In most cases, this limitation resulted in program costs being
           deemed unsupported. The Authority’s failure to provide full and free access to its
           offices, facilities, books, documents, and records was a violation of its annual
           contributions contract.




                                            14
Conclusion

             The Authority’s management and board failed to establish a control environment
             that instilled responsibility and accountability. They failed to ensure that basic
             controls were in place over the Authority’s financial operations (finding 2), ensure
             compliance with procurement requirements (finding 3), and adequately plan and
             undertake capital improvements (finding 4). Meanwhile, they spent lavishly on
             items that benefited them personally. As a result of their actions, the Authority
             incurred questioned costs of more than $5.9 million and was in violation of its
             annual contributions contract. In addition, the Authority’s lack of controls put it
             at substantial risk for fraud, errors, and improper payments.

             HUD should determine if the Authority was in substantial default of its annual
             contributions contract and take appropriate administrative action against the
             executive director and commissioners.


Recommendations

             We recommend that the Deputy Assistant Secretary for Field Operations

             1A. Coordinate with the Field Office to provide information to the Departmental
                 Enforcement Center to enable it to make a determination whether the
                 Authority was in substantial default of its annual contributions contract.

             We recommend that the Director, Office of Public Housing, Houston, TX

             1B. Require the Authority to repay from non-Federal funds $8,410 in ineligible
                 charge card charges. Repayment should be made to its appropriate
                 program(s), or if a determination can’t be made as to which program(s)
                 should be repaid, the funds should be repaid to HUD.

             1C. Require the Authority to support or repay $55,986 in unsupported charge
                 card charges. Any repayments should be made from non-Federal funds and
                 made to the Authority’s appropriate program(s), or if a determination can’t
                 be made as to which program(s) should be repaid, the funds should be
                 repaid to HUD.

             1D. Require the Authority to implement controls over its charge cards, including
                 a policy which emphasizes that only the authorized cardholder may use an
                 Authority charge card; limits the types of purchases or the amount of
                 purchases permitted with the cards; and provides guidelines for selecting
                 merchants and vendors, tracking purchases, and card payment and
                 settlement procedures.




                                              15
      1E. Determine whether the clause in the excutive director’s contract permiting
          payment for unused leave is allowable and if not, require the Authority to
          reimburse $49,833 to its programs (general fund $9,061, Housing Choice
          Voucher program $25,049, Capital Fund program $5,329, and $10,394
          Housing Opportunities). Further, the Authority should be required to
          support that the executive director’s leave balances were decreased for any
          leave for which he was paid.

      1F. If HUD does not take control of the Authority pursuant to recommendation
          1A, direct the mayor of Port Arthur to appoint an eligible resident
          commissioner to the Authority’s board and encourage the mayor to evaluate
          the effectiveness of the board and remove and replace commissioners as
          appropriate.

      1G. Encourage the Authority to recover the various equipment given to the
          commissioners.

We recommend that the Director, Departmental Enforcement Center

      1H. Take appropriate administrative action, including possible debarment,
          against the executive director and commissioners.




                                     16
Finding 2: The Authority’s Management Failed To Enact Financial
Controls
The Authority’s financial management system failed to meet Federal standards. This deficiency
occurred because management failed to establish formal controls, including written policies and
procedures, over its financial operations. Management also failed to establish a control environment
to instill integrity and ethics in achieving its mission. Further, the board did not hold management
accountable for these standards, and the commissioners failed to hold themselves to a high standard
of integrity and fiduciary responsibility. As a result, the Authority failed to properly allocate costs
and process invoices. In addition, it failed to provide requested payroll data, resulting in $2.9
million in unsupported payroll expenses. Further, the Authority’s lack of financial controls put it at
substantial risk for fraud, errors, and improper payments.


     The Authority’s Financial
     Management System Failed To
     Meet Federal Standards

                 The Authority’s financial management system failed to meet Federal standards,
                 resulting in substantial risk to HUD programs and funding. Federal regulations
                 require grantees to have controls sufficient to safeguard assets and ensure
                 effective and efficient use and accurate reporting of funds. 15

                 Contrary to these requirements, Authority management failed to establish formal
                 controls, including written policies and procedures, over its financial management
                 system. As a result, it did not (1) properly allocate costs, (2) properly process
                 invoices, and (3) support or properly allocate its payroll. Because of these
                 significant internal control deficiencies, the costs recorded in the Authority’s general
                 ledger were unreliable, which would also have an impact on the reliability of the
                 Authority’s financial statements.


     The Authority Improperly
     Allocated Costs

                 The Authority’s cost allocation plan was deficient. The Authority was required to
                 prepare and certify an indirect cost allocation plan. 16 Indirect costs are those that
                 have been incurred for common or joint purposes. Such costs benefit more than
                 one cost objective and cannot be readily identified with a particular final cost
                 objective without effort disproportionate to the results achieved. However, the
                 Authority’s cost allocation plan covered only the allocation of administrative


15
      24 CFR 85.20
16
      2 CFR 225


                                                   17
                    salaries and did not contain the required certification. 17 It did not include
                    provisions for allocating other indirect costs among its programs. As a result, the
                    Authority improperly allocated costs to its programs.

                    The Authority Improperly Allocated Costs Solely to the Voucher Program
                    The Authority charged all expenses for its administration building to its Housing
                    Choice Voucher program. However, one floor of the three-story building was
                    dedicated to nonvoucher activities, including the executive office, public housing
                    management, finance, procurement, its component units, and related entities. It
                    also stored its vehicles on the property. It was, therefore, not reasonable to
                    allocate all expenses for the administration building to the voucher program. For
                    example, the Authority charged the voucher program for $76,707 in telephone
                    expenses that it should have allocated among the programs that the building
                    served. As a result, the Authority overreported its voucher program
                    administrative expenses to HUD.

                    The Authority Improperly Allocated Costs to Other Programs
                    The Authority allocated the full cost of its information technology contracts
                    totaling $32,840 and photocopier leases totaling $64,038 to its HUD programs
                    rather than apportioning the costs among the programs that benefited. In another
                    example, the Authority commissioned an overall assessment of the Authority’s
                    organizational design, but it expensed 42 percent of the $118,352 cost to the
                    temporary DHAP Ike program. Since it did not have a proper allocation method,
                    the Authority either underreported or overreported costs for its various programs.

                    To prevent the future improper allocation of costs, the Authority should adopt and
                    implement a cost allocation plan that includes procedures to ensure it reasonably
                    allocates costs to the programs that benefit from them. HUD should also require
                    the Authority to support or repay the $173,584 in improperly allocated costs
                    identified during the audit. 18


     The Authority Did Not Properly
     Process Invoices

                    Contrary to sound business practices, Authority management did not have
                    procedures to ensure the timely payment, proper authorization, and proper
                    accounting for vendor invoices. Regulations and HUD guidance require the
                    Authority to maintain an effective system of internal control and financial
                    management including timely payment of invoices, supervisory review and approval
                    of documents, and proper allocation of expenses.



17
       The Authority’s 2010 financial statement audit found that its salary allocation did not meet HUD requirements.
18
       The amount does not include the $118,352 in DHAP Ike costs, as those costs are questioned in the procurement
       section of this report.


                                                          18
                  The Authority Did Not Always Pay Vendor Invoices in a Timely Manner
                  The Authority did not always pay vendor invoices in a timely manner. As shown in
                  table 3, a review of 185 invoices for 5 vendors revealed 22 invoices that the
                  Authority paid late. In addition, 20 invoices did not contain an invoice date or date
                  received, making it impossible to determine whether the Authority paid them in a
                  timely manner.

                  Table 3: Schedule of vendor payments
                                                     Total      0-30     31-60    61 +   Unable to   Percentage of
                               Vendor               invoices    days     days     days   determine   late payments

                   DHAP Ike case management             24        5                             19        Unknown

                   Organizational review 19             5         2        2       1                      60 percent

                   Architect                            34       26        5       3                      24 percent

                   Construction                         7         0        4       3                    100 percent

                   Information technology provider     115       110       2       2            1          3 percent

                   Totals                              185       143      13       9            20


                  Authority management also did not ensure the timely payment of its American
                  Express and utility bills, resulting in unnecessary and avoidable interest and late
                  fees. Further, when it failed to pay the entire balance, it did not properly accrue
                  the expenses and resulting liabilities in the general ledger.

                  The Authority Did Not Always Properly Authorize Invoice Payments
                  Authority management did not ensure that the Authority properly authorized or
                  approved vendor invoices before payment. Of the 185 invoices reviewed, only 38
                  contained an indication that management authorized or approved payment of the
                  invoice. Without control procedures governing the approval or authorization of
                  invoices before payment, Authority management failed to mitigate the risk that it
                  would make improper payments for (1) unauthorized purchases, (2) services not
                  received, or (3) invoice errors not detected. For example, the executive director’s
                  assistant purchased more than $26,000 in computer equipment, but there was no
                  documentation to show that the assistant was authorized to make the purchases,
                  nor was there evidence of approval on the resulting invoices.

                  Of the 38 invoices that contained evidence of approval, 6 bore the executive
                  director’s initials in the form of a stamp. Testing of the Authority’s controls to
                  safeguard signature stamps found that the assistant had access to the executive
                  director’s stamps and used them to approve invoices. Given the previous example
                  of the assistant’s ordering equipment with no apparent authority, this lack of
                  control over the executive director’s signature stamp represented a significant risk
                  for abuse.


19
     Two of the invoices reviewed were for services not related to the organizational review.


                                                         19
                  The Authority Did Not Always Charge the Correct Fund or Program
                  For the 34 architect invoices, the Authority incurred $14,253 in architect fees for
                  property inspections at developments associated with its Housing Opportunities
                  Fund, but it expensed the costs to Port Arthur Affordable Housing. This improper
                  charging represented 49 percent of the architect’s billings during the review
                  period. The Authority posted the expenses to its general ledger as “contract
                  costs” and “office contracts,” rather than as expenses of the corresponding
                  projects. The Authority considered the funds in Port Arthur Affordable Housing
                  to be non-Federal funds. However, regardless of restrictions on available funds,
                  the Authority should ensure it charges costs to the appropriate projects and
                  programs.

                  The Authority Failed To Support the Charges Reflected on the DHAP Ike Invoices
                  Despite an Office of Inspector General (OIG) administrative subpoena demanding
                  the information, the Authority failed to provide support for the charges reflected on
                  the 24 contractor’s invoices for DHAP Ike case management services. Under the
                  contract, the Authority was to pay the contractor a fee per family based on the total
                  number of families under a DHAP Ike subsidy contract during the month. While the
                  invoices reflected the total number of families served, the Authority did not provide
                  support showing that families were served. Therefore, HUD should require the
                  Authority to either support or repay more than $1.39 million in unsupported case
                  management services.

                  HUD should require the Authority to adopt and implement controls, including
                  written policies and procedures, over the receipt, review, approval, and payment
                  of vendor invoices. 20 These controls should include a system of procedures for
                  logging incoming invoices, stamping them with the date received, and routing
                  them for appropriate review and approval before payment. The system should
                  allow the Authority to identify invoices it has received but not paid so it can
                  ensure it pays its obligations as agreed upon and avoid unnecessary late fees and
                  interest. Further, HUD should require the Authority to restrict access to signature
                  stamps, including adopting and enforcing policies for their appropriate use.


     The Authority Did Not Support
     or Properly Allocate Certain
     Payroll Expenses

                  The Authority did not provide payroll information and did not properly allocate
                  certain payroll expenses. Federal regulations as well as the annual contributions
                  contract required the Authority to maintain complete and accurate books and
                  records. Further, the Authority was required to furnish those books and records for


20
      See also Audit Report 2011-FW-1005, The Housing Authority of the City of Port Arthur, TX, Mismanaged Its
      Recovery Act Funding, issued January 25, 2011, recommendation 1C.


                                                       20
                  audit and accurately report its expenses to ensure consistency in reporting to HUD
                  the source and application of its funds.21

                  The Authority Failed To Support Its Payroll
                  Despite repeated requests, including a demand letter, the Authority did not provide
                  supporting data for its payroll. It provided only printed payroll records for the last
                  pay period of 2010. As a result of this scope limitation, detailed testing could not be
                  performed to identify potential irregularities and determine whether the Authority’s
                  payroll expenses were reasonable, supported, and properly allocated during the
                  review period. Therefore, the Authority failed to support its payroll expenditures
                  during the audit period. As shown in table 4, the Authority charged more than $2.9
                  million in payroll expenses to HUD-funded programs.22

                              Table 4: Payroll expense by fund
                               Fund                                         Amount
                               General fund                                   $342,975
                               Carver Terrace                                   450,082
                               Gulf Breeze & scattered sites                     17,939
                               Section 8 vouchers                             1,655,667
                               Capital Fund                                     336,493
                               Housing Opportunities Fund                       149,481
                                         HUD total                           $2,952,637

                              Home ownership                                     35,435
                              Port Arthur Affordable Housing                     61,803
                                       Other total                              $97,238
                              Grand total                                    $3,049,875


                  The Authority posted its payroll transactions in summary to its general ledger.23 The
                  finance staff stated this procedure prevented personnel who had access to the general
                  ledger from viewing others’ payroll information. Since the Authority did not
                  provide the requested detailed data, a review of the summary payroll transactions
                  was performed. Testing showed nine irregular payroll transactions totaling
                  $102,485. For example, on September 3, 2009, the day before a regular pay date,
                  the Authority recorded 23 payments totaling $39,631 charged to the DHAP Ike
                  program. The Authority processed payroll, including DHAP salaries, the next day.
                  This off-cycle payment was unusual because the salary amounts were at least six
                  times more than the usual DHAP Ike salaries. In another off-cycle payment, on
                  September 22, 2010, the Authority issued 22 payroll checks for $36,718 in payroll
                  expenses allocated among its programs.

                  The Authority implemented a new timecard system during the review period. The
                  finance staff’s description of the system indicated that a nonsupervisory person
                  could make unauthorized manual changes to employee timecard swipes and printed

21
     HUD Handbook 7510.1, Low Rent Technical Accounting Guide
22
     Includes $463,509 allocated to the DHAP and DHAP Ike programs
23
     The entries reflected total amounts for each category of expense and did not identify individual payees.


                                                         21
                  timecards would not identify that these changes had occurred. Further, finance staff
                  indicated supervisors did not always identify and correct errors. The payroll clerk
                  could generate a report to identify manual changes but did not always do so.
                  Because the Authority had no written procedures for payroll processing, it risked
                  improper changes to timekeeping records, which could result in improper payments
                  or payment errors.

                  The Authority Failed To Properly Allocate Certain Payroll Expenses
                  The Authority did not properly allocate payroll expenses for security guards and a
                  social services coordinator. It charged those expenses as management
                  improvements. However, HUD required salary expenses for security guards to be
                  charged as protective services labor and salaries for social services coordinators to
                  be charged as tenant services salaries.24 The Authority incorrectly charged $288,613
                  for security guards and $46,140 for its social services coordinator during the audit
                  period, overreporting its costs for management improvements by $334,753.

                  HUD should require the Authority to support or repay $2.9 million in HUD-funded
                  portions of its payroll expenses during the review period, including the $102,485 in
                  irregular payroll transactions. HUD should also require the Authority to reclassify
                  the improperly classified payroll expenses, revise any reports that were in error as a
                  result, and record the payroll expenses in the appropriate categories in the future.
                  Further, HUD should direct the Authority to adopt and implement procedures for
                  processing payroll designed to prevent, detect, and correct unauthorized changes to
                  timekeeping records.

     Conclusion

                  The Authority’s financial management system failed to meet Federal standards.
                  Although management and its board were aware that the Authority had no formal
                  policies and procedures for its financial operations, they failed to take action to
                  mitigate the risks of fraud, errors, and improper payments. As a result, the
                  Authority failed to properly allocate costs and process invoices. In addition, it
                  failed to provide requested payroll data, resulting in $2.9 million in unsupported
                  payroll expenses. HUD should require the Authority to adopt and implement
                  internal controls over its financial operations to safeguard assets and ensure the
                  accuracy of its financial reporting.




24
      HUD Guidebook 7510.1, Public and Indian Housing Low-Rent Technical Accounting Guide


                                                    22
     Recommendations

                   We recommend that the Director, Office of Public Housing, Houston, TX, require
                   the Authority to

                   2A. Adopt and implement a cost allocation plan that includes procedures to
                       ensure it reasonably allocates both direct and indirect costs to the programs
                       that benefit from them.

                   2B. Support or repay from non-Federal funds $173,584 in improperly allocated
                       costs to its various HUD programs.

                   2C. Adopt and implement controls, including written policies and procedures,
                       for the receipt, review, approval, and payment of vendor invoices and
                       procedures for processing payroll designed to prevent, detect, and correct
                       unauthorized changes to timekeeping records.

                   2D. Implement access controls over signature stamps, including adopting and
                       enforcing policies for their appropriate use.

                   2E. Support or repay $1,278,151 25 (general fund $336,095, public housing
                       program $468,021, Capital Fund program $332,446, and $141,589 Housing
                       Opportunities) in HUD-funded portions of its payroll expenses during the
                       review period, including the $102,485 in irregular payroll transactions.

                   2F. Reclassify the improperly classified payroll expenses, revise any reports that
                       were in error as a result, and record the payroll expenses in the appropriate
                       categories in the future.

                   We also recommend the Director, Office of Public Housing, Houston, TX

                   2G Reduce or offset future Housing Choice Voucher administrative fees by
                      $1,636,647 26 for unsupported payroll amounts, unless the Authority can
                      provide support.




25
      Excludes $18,819 in payments to the executive director for unused leave that occurred in 2010
26
      Excludes $19,020 in payments to the executive director for unused leave that occurred in 2010


                                                         23
Finding 3: The Authority Failed To Comply With Procurement
Requirements
The Authority failed to follow Federal regulations and its own procurement policy in its
procurement and contracting for goods and services. Also, contrary to Federal requirements, the
Authority lacked a contract monitoring or administration system and failed to maintain
procurement or contract files. Therefore, it was unable to provide records sufficient to detail the
significant history of its procurements, including independent cost estimates, evidence of
adequate competition when required, 27 and clearly written contracts. It also failed to ensure that
contract payments were within contract terms. Further, the Authority purchased computer
equipment from a contractor without following proper procurement requirements and
determining the reasonableness of the equipment’s cost. These conditions occurred because the
Authority’s management failed to enact procedures to ensure compliance with procurement
requirements. As a result, the Authority incurred $453,864 in ineligible costs and could not
support almost $1.8 million in procurement and contracting costs.


     The Authority Lacked a
     Contract Administration System

                  The Authority was required to implement and maintain a contract administration
                  system sufficient to detail the significant history of its procurements. 28 Federal
                  regulations required the Authority to maintain records including but not limited to
                  the following: rationale for the method of procurement, selection of contract
                  type, contractor selection or rejection, and the basis for the contract price. It was
                  also required to administer its programs efficiently and effectively through the
                  administration of sound management practices. In addition, the Authority’s own
                  procurement policy required it to “provide safeguards in maintaining a
                  procurement system of quality and integrity and assure that the Authority’s
                  purchases were in full compliance with applicable Federal standards, HUD
                  regulations, and State and local laws.”

     The Authority Could Not
     Identify Its Contracts

                  In response to a request for a contract register or log, the Authority provided a
                  “contract list” containing the names of 37 entities; the list contained no additional
                  information. The executive director stated that the Authority generated the list
                  only to fulfill the audit request and he could only determine who the Authority
                  had contracts with by looking at its payments. Thus, management lacked an

27
      According to the Authority’s procurement policy and State law, procurements over $50,000 required
      competition.
28
      24 CFR 85.36


                                                        24
                    effective tool for monitoring its procurement activities and contract performance.
                    Further, analysis of the Authority’s general ledger reflected that the contract list it
                    provided was incomplete. For example, the Authority did not disclose its
                    contracts with its independent auditor, an office supply company, and a plumbing
                    company, all of which it paid more than $100,000 during the review period.

     The Authority Did Not Maintain
     Procurement or Contract
     Documentation

                    The Authority did not maintain procurement or contract files for the contracts it
                    disclosed. It had difficulty locating and providing documentation for the selected
                    sample of 11 contracts.29 Further, the Authority disregarded auditors’ repeated
                    requests to accompany Authority personnel while they retrieved contract files.30
                    When it did provide documentation, the material was unorganized and incomplete,
                    and it appeared that the Authority had assembled the documents to only fulfill the
                    audit request. Of the 11 contracts selected, the Authority provided only 1 file, which
                    was incomplete and was not an official procurement file but, rather, a file the
                    director of property services maintained for his own reference. As shown in figure
                    1, the Authority failed to maintain required documentation for the 11 sample
                    procurements and contracts reviewed.
                       Figure 1: Results of procurement review
                      12


                      10


                       8


                       6                                                                                  Yes
                                                                                                          No
                       4                                                                                  N/A


                       2


                       0
                             Contract file        Contract      Independent cost      Adequate
                             maintained           provided          estimate         competition
                    In addition, the Authority did not have a contract for 6 of the 11 procurements
                    reviewed. For four of the six, the Authority provided contracts executed in 2011,

29
      The Scope and Methodology section describes the sampling methodology for procurement.
30
      The annual contributions contract required the Authority to maintain complete books and records and provide
      them for audit. It further stated HUD should have full and free access to all of its offices and facilities and to all
      books, documents, and records relevant to the administration of the projects under the contract, including the
      right to audit and make copies.


                                                             25
                   which was after the audit period end date of December 31, 2010. Therefore, it
                   failed to provide contracts covering its purchases during the audit period. It
                   provided no contract document for the remaining two procurements.


     The Authority Did Not Prepare
     Independent Cost Estimates

                   The Authority did not perform required independent cost estimates for 10 of 11
                   procurements reviewed. In addition, the Authority’s architect prepared the one
                   cost estimate provided. 31 According to HUD’s and its own requirements, the
                   Authority was required to make an independent estimate before receiving bids or
                   proposals. 32

     The Authority Did Not Ensure
     Adequate Competition

                   The Authority did not ensure adequate competition before awarding contracts. It
                   did not document adequate competition for 8 of the 11 contracts reviewed. For
                   five of the eight, the Authority provided no documentation. For the remaining
                   three, it provided documentation; however, it did not follow competitive
                   procurement requirements.

                       •    The Authority improperly sole sourced its $1.5 million DHAP Ike case
                            management contract. It did not solicit bids. Although it requested an
                            exemption from HUD to forgo the competitive procurement requirements,
                            it did not supply evidence that HUD granted an exemption.

                       •    The Authority improperly procured its home ownership coordinator’s
                            contract. The Authority stated it received only one bid, and it did not take
                            the additional required steps to justify the noncompetitive procurement.

                       •    The Authority improperly procured its contract for an organizational
                            assessment. The Authority stated it received only one bid, and it did not
                            take the additional required steps to justify the noncompetitive
                            procurement.




31
      We issued an administrative subpoena for the Authority’s contract with the architect; however, the Authority
      failed to provide it.
32
      24 CFR 85.36(f)(1)


                                                          26
The Authority’s Contracts Were
Vague and Did Not Always
Match Proposals

           Three of the five contracts provided for review were vague and did not always
           match the proposals submitted by contractors.

               •   The Authority’s contract with its DHAP Ike case management contractor
                   did not make it clear how the contractor’s fee would be calculated.
                   Review of the invoices submitted by the contractor did not clarify the
                   issue.

               •   The Authority’s contract with its information technology provider
                   conflicted with the proposal. The proposal reflected that the plan the
                   Authority selected was all inclusive and only computer parts would be
                   billed separately. However, in addition to the all inclusive plan, the
                   Authority paid the provider $42,600 for “block” time, which was for
                   special projects, such as server installation. The block time appeared to be
                   charges for onsite maintenance performed by the provider, which
                   conflicted with the proposal, which stated specifically that all labor was
                   included in the monthly fee of $3,574. Although the Authority paid the
                   contractor for 500 block hours during the audit period, the invoices
                   reflected only 18.75 block hours charged.

               •   The Authority’s contract for remodeling scattered-site public housing units
                   contained conflicting provisions regarding the schedule of payments and
                   did not include the required contract clauses.

The Authority Paid Contractors
Outside the Scope of the
Contract

           The Authority made contract payments that were not limited to contract services.
           It did not have a system of controls in place to ensure that contract payments were
           limited to services covered by the contract.

               •   The Authority paid $103,984 for work outside the scope of its contract to
                   remodel its scattered-site public housing units, an increase of 49 percent
                   over the original contract amount of $211,449. In response to a subpoena
                   for documents, the Authority responded that it had no executed change
                   orders with the contractor.

               •   The Authority improperly paid its DHAP Ike case management contractor
                   before it executed its contract and for 6 months after the contract expired.


                                            27
                            It paid $50,320 before contract execution and $270,483 after the contact
                            expired.

                        •   The Authority paid for equipment, furniture, and other supplies for the
                            DHAP Ike case management contractor. However, the contract
                            specifically stated that these types of items were to be included in the cost
                            per family charged by the contractor, not paid in addition to the cost per
                            family.

                        •   The Authority improperly paid $44,760 in duplicated salary costs,
                            including bonuses for its DHAP Ike contract.

                        •   The Authority also paid its DHAP Ike contractor $96,500 33 for a home
                            ownership program coordinator that was not included in the contract and
                            did not appear related to DHAP Ike case management services. In doing
                            so, it circumvented State law that required it to procure the services
                            competitively.


     The Authority Improperly
     Purchased Computer
     Equipment

                   The Authority improperly purchased computer equipment. In addition to the
                   contract payments to its information technology provider, the Authority’s records
                   showed that it purchased in excess of $120,000 34 in computer equipment from the
                   contractor without obtaining quotes from other sources or taking steps to
                   determine the reasonableness of the price. The Authority ordered a variety of
                   computer equipment from the contractor during the audit period, but it only had
                   invoices to support the purchases. In response to a request for documentation on
                   effort taken by the Authority to ensure the prices were the best available, the
                   Authority’s attorney responded:

                            This equipment was not purchased in a single instance. The Authority has
                            a long-term relationship with [its contractor]. Additionally, [its
                            contractor] maintains the Authority’s system. The Authority has
                            informally checked some of [the contractor’s] bids against other vendors.
                            The Authority has found [contractor’s] bids to be competitive with other
                            vendors for the same or similar equipment, especially given the fact of [its
                            contractor’s] maintenance of the equipment.

                   However, the Authority had no bids or other evidence that it ensured the prices
                   were reasonable. It had a responsibility to administer its procurement in

33
      The Authority paid the expenses with non-Federal funds it received as developer fees from its tax credit
      properties.
34
      Includes the $26,000 ordered by the executive director’s assistant


                                                          28
                   accordance with Federal regulations and its own procurement policy, regardless
                   of whether it purchased from a known vendor. Further, the Authority’s long-term
                   relationship with the contractor did not release it from its responsibility to
                   maintain documentation supporting the cost reasonableness of its purchases.

     Management and the Board
     Were Aware of Procurement
     Problems


                   The Authority’s financial statement audits repeatedly contained findings regarding
                   procurement problems. 35 Both the Authority’s management and its board were
                   aware of the procurement problems. However, despite the Authority’s repeated
                   responses that corrective action had been taken, management did not take sufficient
                   steps to correct the issues, and the problems remained. The Authority did hire a
                   procurement officer and began using an e-procurement program; however, it had not
                   adopted or implemented procedures to ensure it complied with its procurement
                   policy or adopted a required contract administration system.

     Conclusion

                   Because the Authority did not have the necessary procurement controls, it paid a
                   total of $453,864 in ineligible and almost $1.8 million in unsupported
                   procurement and contracting costs. HUD should require the Authority to repay or
                   support these questioned costs. Further, HUD should require the Authority to
                   implement procurement and contracting procedures to ensure it meets HUD
                   requirements, including a contract administration system that allows it to identify
                   and monitor its contracts. HUD should also require the Authority to perform a
                   detailed inventory of its information technology equipment that identifies all
                   equipment owned by the Authority and who is in possession of the equipment.

     Recommendations

                   We recommend that the Director, Office of Public Housing, Houston, TX, require
                   the Authority to

                   3A. Repay HUD from non-Federal funds $103,984 in ineligible contract costs
                       charged to its public housing Capital Fund program.

                   3B. Support or repay the appropriate programs from non-Federal funds
                       $447,168 in unsupported procurement and contracting costs (general fund
                       $50,212, public housing $208,362, DHAP Ike $84,659, Housing
                       Opportunties Fund $34,591, and Capital Fund program $69,344).
35
      The 2008, 2009, and 2010 audit reports all contained procurement-related findings.


                                                         29
3C. Implement procurement and contracting procedures, including a contract
    administration system that ensures it meets HUD requirements and allows it
    to identify and monitor its contracts.

3D. Perform a detailed inventory of its information technology equipment that
    identifies all equipment owned by the Authority and who is in possession of
    the equipment.

We also recommend the Director, Office of Public Housing, Houston, TX

3E Reduce or offset future Housing Choice Voucher administrative fees by
   $254,709 for unsupported procurement and contracting costs, unless the
   Authority can provide support.


We recommend that the Director, Program Support Division, require the
Authority to

3F. Support or repay to HUD or FEMA, as appropriate, from non-Federal funds
    $1,093,220 for unsupported case management services under its DHAP Ike
    contract.

3G. Repay to HUD or FEMA as appropriate, from non-Federal funds $349,880
    in ineligible expenses not included in its contract for DHAP Ike case
    management services.




                               30
Finding 4: The Authority Improperly Administered Its Capital Funds
The Authority’s management failed to properly administer its Capital Fund program. This
occurred because it failed to follow HUD regulations regarding planning Capital Fund activities,
obligating and expending funds, and carrying out physical and management improvements. It
also had no clear plan for how it would spend the funds in its replacement reserve. Further, it
appeared the Authority drew the funds in its replacement reserve only to avoid recapture of
unobligated capital funds. As a result, it was in violation of its annual contributions contract
with HUD.


     The Authority Did Not Properly
     Plan Its Capital Activities

                 The Authority was required to prepare annual and 5-year plans for its capital
                 funds, detailing the physical and management improvement needs for the
                 Authority as a whole and all of its developments, including preliminary estimates
                 of the total cost of the improvements and a plan to carry them out. 36 The
                 Authority did not prepare its annual or 5-year plans in accordance with
                 regulations. Management failed to use the plans as tools to identify and address
                 physical and management improvement needs. It submitted plans to HUD that
                 were general in nature and did not describe the projects it would undertake with
                 its capital funds. In its 2009 and 2010 plans, the Authority reported that it
                 planned to submit a demolition application to HUD for its Carver Terrace
                 development by February 2010. However, as of January 2012, the Authority had
                 not submitted an application or proceeded with land acquisition. This deficiency
                 demonstrated the Authority’s failure to carry out its generalized plans for its
                 Capital Fund activities.

     The Authority Failed To Spend
     Available Capital Funds


                 The Authority was required to obligate its capital funds within 24 months from
                 the date the funds became available or it accumulated adequate funds to undertake
                 modernization, substantial rehabilitation, or new construction. 37 It did not spend
                 its available capital funds within the required time limit, and it had not
                 documented that it was accumulating funds to undertake a specific project. HUD
                 granted an initial 2-year extension of the obligation deadline for the Authority’s
                 Capital Fund grants because of hurricane damage, but the Authority still had not
                 undertaken activities to use the funds.




36
      24 CFR 968.315(e)
37
      24 CFR 905.120(a)


                                                 31
                  In October 2009, the Authority drew down $469,359 in unobligated capital funds
                  from its 2006 and 2007 grants and placed the funds into replacement reserve
                  accounts. It also budgeted $59,191 of its 2008 Capital Fund grant for replacement
                  reserve, but it had not yet drawn down the funds. In total, the Authority had
                  $528,550 in unused capital funds set aside as replacement reserve. HUD allowed
                  the Authority to draw the funds with the understanding that it would use the funds
                  to rebuild Carver Terrace. However, in its plans for the year beginning October
                  2009, the Authority budgeted the replacement reserves for Gulf Breeze and its
                  administrative office rather than Carver Terrace.

                  Since it had no clear plan for how it would spend the funds in its replacement
                  reserves and had not submitted an application for demolition, it appeared the
                  Authority drew the funds only to avoid recapture of unobligated capital funds.
                  Regulations allowed the Authority to delay obligation until it had accumulated
                  adequate funds to undertake a project. However, the regulations did not authorize
                  the Authority to draw down unobligated funds and place them in bank accounts
                  that were not under HUD’s control. Therefore, HUD should recapture the
                  $469,359 the Authority drew as replacement reserves from its 2006 and 2007
                  grants and revise the budget authority for the undrawn replacement reserves of
                  $59,191 from its 2008 grant. Further, HUD should decide whether to permit the
                  Authority additional time to obligate the funds in accordance with the provision
                  for accumulating adequate funds.

     The Authority Delayed
     Carrying Out Physical
     Improvements

                  It appeared the Authority delayed the modernization or replacement of Carver
                  Terrace in an attempt to accumulate additional funds from other sources. For
                  example, in 2009, the Authority planned to use its $725,546 Recovery Act 38
                  Capital Fund grant in conjunction with disaster funds it expected to receive from
                  the regional planning commission to demolish and rebuild Carver Terrace. When
                  it became clear that the disaster funds would not become available, the Authority
                  instead decided to use the Recovery Act grant to build a learning center at its new
                  Gulf Breeze development. The Authority hastily entered into an agreement for
                  the learning center that violated procurement requirements and proceeded with the
                  project without environmental clearance. 39 As a result, HUD recaptured
                  $657,906 of the grant.

                  In another example, when asked about the delay in submitting a demolition
                  application for Carver Terrace, the director of property services stated the
                  Authority anticipated it would receive funding from the U. S. Environmental

38
      American Recovery and Reinvestment Act of 2009
39
      Audit Report 2011-FW-1005, The Housing Authority of the City of Port Arthur, TX, Mismanaged Its Recovery
      Act Funding, issued January 25, 2011


                                                      32
          Protection Agency as a result of the agency’s investigation of environmental
          issues at Carver Terrace in 2011. Apparently, the Authority had concerns that the
          agency would not provide additional funding to cure environmental concerns at
          the development if the Authority proceeded with demolition. Further, the director
          stated the Authority was not using capital funds to modernize Carver Terrace
          because making major capital improvements would be contrary to its plans for
          demolition. The Authority’s actions with respect to Carver Terrace demonstrated
          that it had not adequately administered its Capital Fund grants. Instead, the
          Authority accumulated funds and pursued additional funding but took no action to
          modernize or replace the project. At the same time it was delaying modernizing
          or replacing the Carver Terrace project, the Authority built four mixed-finance
          projects and made millions of dollars in developer fees.

          Because the Authority failed to properly administer its Capital Fund activities, it
          was in violation of its annual contributions contract. HUD should determine if the
          Authority was in substantial default of its annual contributions contract, take
          appropriate administrative action to cure the default, and direct the Authority to
          take corrective action, including preparing a detailed plan for the use of its capital
          funds that includes the modernization or demolition and replacement of Carver
          Terrace.

Recommendations

          We recommend that the Director, Office of Public Housing, Houston, TX

          4A. Recapture the $469,359 the Authority drew as replacement reserves from its
              2006 and 2007 Capital Fund grants.

          4B. Revise the budget authority for the undrawn replacement reserves of
              $59,191 from its 2008 Capital Fund grant.

          4C. Require the Authority to prepare a detailed plan for the use of its capital
              funds that includes the modernization or demolition and replacement of
              Carver Terrace.




                                           33
                         SCOPE AND METHODOLOGY

The scope of the audit covered the Authority’s financial and procurement operations for the
period January 1, 2009, through December 31, 2010. We expanded the scope as necessary to
meet the review objectives. We conducted the audit at the Authority’s administrative offices in
Port Arthur, TX, the HUD field office in Houston, TX, and our offices in Fort Worth, TX, from
March 2011 through January 2012.

To accomplish our objectives, we performed the following:

   •   Reviewed relevant laws, regulations, contracts, and other HUD requirements and
       guidance.
   •   Reviewed the Authority’s procurement and travel policies and an excerpt of its personnel
       policy regarding leave.
   •   Reviewed the Authority’s audited financial statements for its fiscal years 2008 through
       2010.
   •   Obtained, tested, and analyzed data representing the transactions in the Authority’s
       general ledger for the audit period.
   •   Obtained and tested a list of the Authority’s contracts.
   •   Selected a sample of contracts for procurement review based on the Authority’s contract
       list.
   •   Obtained and reviewed procurement records, which were incomplete.
   •   Obtained and reviewed copies of checks and supporting invoices related to selected
       contracts.
   •   Reviewed transactions and supporting documentation for purchases on the Authority’s
       charge cards.
   •   Reviewed the Authority’s cost allocation plan.
   •   Issued an OIG administrative subpoena and demand letter for data and documents.
   •   Performed walk-throughs of the Authority’s procurement, accounts payable, and payroll
       functions.
   •   Reviewed the Authority’s annual and 5-year plans covering the review period.
   •   Interviewed Authority staff, its attorneys, its board chairman, and HUD staff in Houston
       and Fort Worth, TX, and Washington, DC.

Data Reliability Assessments
The Authority’s general ledger data appeared to be complete and provided an accurate picture of
entries made by Authority personnel. The data were sufficiently reliable for the planned use.
Data were limited in that the Authority posted payroll and credit card transactions in summary,
while it posted its other transactions in detail. This limitation did not lead to an incorrect or
unintentional message or conclusion of the general ledger data because audit work in those areas
relied on other data and supporting documentation, if provided. We used the data to identify
Authority expenditures and payees for later review. We analyzed the data to determine amounts
paid to individual payees, allocated as expenses of particular individuals or projects, and charged
to the Authority’s different funds. The data were not the sole basis to form audit conclusions but


                                                34
were corroborated by supporting documentation, if provided. In cases in which the Authority
failed to provide supporting documentation, we classified the transactions as unsupported.

To test the reliability of the Authority’s contract list, we summarized data in the general ledger
by payee to identify totals it paid to each. We isolated the payees with payments that exceeded
the small purchase threshold and compared the resulting list to that provided by the Authority.
We noted the Authority’s contract list was incomplete compared to its general ledger and was,
therefore, not reliable.

Sampling Methodology
Based on review of the contract list provided by the Authority and the Authority’s general
ledger, we selected five contracts to review for the survey. The total amount paid to all
contractors identified by the Authority was more than $3.3 million. The total of the five
contracts included in the survey sample was more than $2.4 million, representing 73 percent of
the total amount paid to all contractors identified by the Authority. We determined that a
nonrepresentative sample of contracts was appropriate as auditors knew enough about the
population to identify a relatively small number of items of interest because they were likely to
be misstated or otherwise had a high risk. Since there were only 34 paid contractors identified
by the Authority and since the sample covered 73 percent of the total amount paid to contractors,
the survey sample was sufficient to determine whether further audit work was warranted.

For audit purposes, an additional five contracts were selected from the Authority’s contract list.
The additional contracts selected for the audit phase totaled $489,677, or 15 percent of the total
amount paid to all contractors identified by the Authority. Therefore, between the survey and
audit phases, auditors reviewed 88 percent of the contracts identified by the Authority. During
the audit phase, an additional contract was selected for review based on information gathered
during the audit. This contract was not on the list provided by the Authority.

Scope limitations
The Authority imposed scope limitations that impaired the audit in two ways. First, the
Authority limited auditor access to staff, records, and data. 40 Second, the Authority provided
incomplete records, particularly for procurement. Both situations limited auditors’ ability to
understand the control environment and the substance of the Authority’s financial and
procurement activities. Auditors made specific requests to meet with staff and observe the
retrieval of procurement documents for review, which the Authority disregarded. The Authority
did not provide all of the documentation requested, even after requests for status updates, and
refused to provide employee data on the advice of its attorney. Because of the Authority’s lack
of cooperation, we issued an OIG administrative subpoena and then a demand letter to obtain
materials necessary to conduct the audit. The Authority did not fully comply with either
requirement that it produce data and records. Further, when it allowed auditors to interview
staff, it ensured that a representative of management or its attorney was present. It also provided
documentation and answers to auditors’ inquiries through its attorneys in outside law firms.

Because of the scope limitations, auditors were unable to complete planned audit work or draw
conclusions about the eligibility of all expenses charged to HUD programs. Auditors disclosed
40
     Restricting access to records violated the Authority’s annual contributions contract with HUD.


                                                         35
in the body of the findings what data or information the Authority failed to provide and how it
impacted the resulting conclusions and recommendations. In most cases, this limitation resulted
in program costs being deemed unsupported. Despite the scope limitation, we conducted the
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. Because we
disclosed how the Authority’s failure to provide data and information impacted our conclusions
and recommendations, we believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                                36
                       FOLLOW-UP ON PRIOR AUDITS


 The Housing Authority of the
 City of Port Arthur, TX,
 Mismanaged Its Recovery Act
 Funding, 2011-FW-1005


We issued an audit report on the Authority’s Recovery Act funding in January 2011 with the
following recommendations:

           •   Rescind the Authority’s $725,546 Recovery Act grant and return the funds to the
               U. S. Treasury in accordance with the Recovery Act, as amended, for the sole
               purpose of deficit reduction. This amount includes the $67,640 already expended
               and the balance of $657,906.

           •   Require the Authority to implement procedures to ensure it complies with all
               relevant procurement requirements. This process may include the provision of
               technical assistance on HUD’s part.

           •   Require the Authority to adopt and implement financial controls to ensure the
               proper routing and approval of invoices and adequate separation of duties
               between those requesting goods and services and those approving payments.

           •   Provide the Authority with or require it to obtain training on environmental
               review requirements.

           •   Prohibit the Authority from conducting further activity on the site of the proposed
               learning center until it receives environmental clearance to do so, regardless of the
               funding source.

Based on this audit, HUD recaptured $657,906, which was the unexpended balance of the grant.
HUD’s Assistant Secretary for Public and Indian Housing granted the Authority an exception to
Recovery Act procurement procedures for the $67,640 already expended. HUD also ensured the
Authority received environmental review training and prohibited it from conducting further
activity on the site.

For the second recommendation the Authority took some steps to improve its procurement
function, but it had not adopted or implemented procedures to ensure it complied with its
procurement policy or adopted a required contract administration system. For the third
recommendation, the Authority had not implemented the needed control procedures for its
finance operations.




                                                37
                                       APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS
                AND FUNDS TO BE PUT TO BETTER USE

 Recommendation              Ineligible 1/ Unsupported 2/       Funds to be put
        number                                                  to better use 3/

                1B                $8,410
                1C                                 $55,986
                1E                                  49,833
                2B                                 173,584
                2E                               1,278,151
                2G                               1,636,647
                3A               103,984
                3B                                 447,168
                3E                                 254,709
                3F                               1,093,220
                3G               349,880
                4A                                 469,359
                4B                                                     $59,191
             Totals            $462,274         $5,458,657             $59,191


1/ Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
   that the auditor believes are not allowable by law; contract; or Federal, State, or local policies
   or regulations.

2/ Unsupported costs are those costs charged to a HUD-financed or HUD-insured program or
   activity when we cannot determine eligibility at the time of the audit. Unsupported costs
   require a decision by HUD program officials. This decision, in addition to obtaining
   supporting documentation, might involve a legal interpretation or clarification of
   departmental policies and procedures.

3/ Recommendations that funds be put to better use are estimates of amounts that could be used
   more efficiently if an OIG recommendation is implemented. These amounts include
   reductions in outlays, deobligation of funds, withdrawal of interest, costs not incurred by
   implementing recommended improvements, avoidance of unnecessary expenditures noted in
   preaward reviews, and any other savings that are specifically identified.




                                                 38
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation                      Auditee Comments

                                                                    COMMISSIONERS
                                                                    REV. RONNIE LINDEN, CHAIRMAN
                                                                    DESIREE EDWARDS, VICE-CHAIRMAN
                                                                    CLONIE AMBROISE
                                                                    BART BRAGG
                                                                    FARHANA SWATI
             EXECUTIVE DIRECTOR
             CELE QUESADA


                                                        May 14, 2012


             Mr. Gerald R. Kirkland
             Regional Inspector General for Audit
             U.S. Department of Housing and Urban Development
             Office of Inspector General, Region VI
             819 Taylor Street, Suite 13A09
             Forth Worth, Texas 76102

                  Re:       Draft Audit Report of the Housing Authority of the City of Port Arthur

             Dear Mr. Kirkland:

                   The Housing Authority of the City of Port Arthur (the “Authority”) is in receipt of the draft audit report,
             entitled The Management and Board of Commissioners of the Housing Authority of the City of Port Arthur, TX,
             Failed To Exercise Their Fiduciary Responsibilities (the “Draft Report”). The Draft Report was prepared by
             the U.S. Department of Housing and Urban Development's (“HUD”) Office of Inspector General (“OIG”)
             following its recent audit of the Authority (the “2011 Audit”). The Authority appreciates the opportunity to
             review the Draft Report and to provide you with our perspective on the matters described therein.

                                                   I.         SUMMARY ANALYSIS

                  A.    The 2011 Audit Makes Recommendations Based On Stale Data.

                  The OIG first audited the Authority (“Recovery Act Audit”) with regard to the Authority's management
             of funds received under the American Recovery and Reinvestment Act of 2009 (the "Recovery Act"). That
             audit generally covered the time period from March 2009 through November 2010. The OIG found that the
             Authority was not properly following HUD's required procurement practices in order to ensure full and open
             competition and did not practice sound financial controls. While the Authority does not accept all of the OIG's
             findings in the Recovery Act Audit, it does recognize and accept the fact that during that timeframe in question
             there was room for improvement.

                  The Draft Report covers essentially the same ground as the prior Recovery Act Audit. In fact, for the
Comment 1    most part, the Draft Report reflects virtually the same findings over the same time period as the Recovery Act


                                   HOUSING AUTHORITY OF THE CITY OF PORT ARTHUR
                                 920 DeQueen Blvd. ● P. O. Box 2295 ● Port Arthur, TX 77643
                              Phone: (409) 982-6442 ● 1(800) 590-6442 ● FAX: (409) 983-7803




                                                         39
            Audit, i.e., 2009 and 2010. This is not surprising since the mistakes, which HUD previously reported were not
            corrected until after they were pointed out during the Recovery Act Audit.
                 In fact, the Authority has made great strides in improvement since the Recovery Act Audit− strides that
            HUD has recognized. HUD has since reviewed the Authority’s public housing program and received a
            “Standard Performer” score of 70 this past year. HUD also reviewed the Authority’s Section 8 program, which
            received a “High Performer” score of 96 this past year. These scores reflect the current state of the Authority.




                      B.         The 2011 Audit Fails to Consider Improvements in the Authority's Operations Since the
                                 Recovery Act Audit.

                  In response to the Recovery Act Audit, the Authority, among other things: (i) engaged an outside
Comment 2   consultant and adopted new procurement policies and procedures; (ii) provided extensive and mandatory training
Comment 4   to its employees, as well as the members of its Board of Commissioners (the "Commissioners") in order to
            correct the procurement practices, which the OIG had determined were inadequate; and (iii) hired a procurement
            officer with more than twelve (12) years of experience handling procurements for a neighboring Texas county.

Comment 3        The OIG did not review those initiatives. Instead, the OIG simply covered the same ground in a different
            guise. By focusing on different programs, it was able to make "new" findings. The result is that the findings in
            the Draft Report are stale, prejudicial, misleading and, if acted upon, harmful to the mission of the Authority.
            Because the OIG relied on information available during the 2009-2010 period prior to the implementation of the
            foregoing procurement improvements, the findings in the Draft Report are not current and, therefore, should be
            wholly disregarded.

Comment 4        Moreover, the Authority has made progress since 2009-2010, which the OIG fails to consider. First, the
            Authority in the process of securing a third party consultant to develop and implement specific, written policies
            governing all manner of operational areas including, but not necessarily limited to, travel, credit card usage,
            investment and asset management policies. In addition, new Commissioners and staff, including a new
            procurement officer, have joined the Authority who are cognizant of the Recovery Act Audit findings and are
            working on improvements in the Authority's operations on a going forward basis.

                  Although interviews were purportedly part of the audit process, the OIG failed to interview a single
            Commissioner to confirm, clarify or otherwise seek an explanation of their involvement or input with respect to
            any of its findings − opting instead to recommend general debarment or removal of the Commissioners without
            any exploration of their involvement or accountability for operational performance during the audit review
            period. Had the OIG interviewed the Commissioners, it would have learned the nature and scope of the progress
            that has been made to date.

                 In the last year, the Authority has taken significant steps to improve its internal financial controls and
Comment 2   processes. There has been significant turnover among the Commissioners and staff. HUD should weigh the
            OIG's findings against the Authority's operational improvements and recognize the Draft Report for what it is −
            a view of the past.

                      C.         The OIG's Baseless Assumptions, Errors and Overreaching Should Not Influence
                                 HUD's Assessment of the 2011 Audit Findings in the Draft Report.




                                  HOUSING AUTHORITY OF THE CITY OF PORT ARTHUR
                                920 DeQueen Blvd. ● P. O. Box 2295 ● Port Arthur, TX 77643
                             Phone: (409) 982-6442 ● 1(800) 590-6442 ● FAX: (409) 983-7803




                                                        40
                        The Authority is disappointed in the manner in which the most recent audit was conducted and the
Comment 5    inflammatory statements set forth in the Draft Report. This is especially true because the OIG improperly
             suggests that HUD takeover or remove Authority management and/or its Commissioners in the Draft Report
             despite the fact that nowhere in the Draft Report has the OIG concluded that the Authority actually acted with
             improper intent. Rather than reflect specific and appropriate findings, the Draft Report instead is comprised of
             unsupported accusations and innuendo including, but not limited to, the following findings and
             recommendations:

                           Despite the fact that Authority produced hundreds of documents spanning dozens of document
Comment 6                   requests − sometimes repeatedly due to the OIG's poor record keeping and erroneous claims that
                            the Authority failed to produce certain documents      − and the Authority's cooperation in
                            facilitating the interviews of its staff in addition to its five (5) commissioners−none of whom the
                            OIG bothered to interview−the OIG claims that it had limited access to information necessary to
                            conduct the 2011 Audit. (Draft Report, p. 13)

                           The OIG improperly attempts to steer HUD to a specific outcome through unnecessary and
Comment 7                   suggestive language regarding HUD's potential "take over" of the Authority or removal of the
Comment 8                   Executive Director and/or the Authority's Commissioners. Such a recommendation is not only
                            improper, but also unsupported by the facts. It assumes that the same Commissioners that served
                            during the audit review period, i.e., 2009-2010, are with the board today when, in fact, the
                            majority, i.e., 3 out of 5, of the Commissioners joined the board in September of 2010 of this
                            review period and, therefore, had virtually no involvement whatsoever in the findings reflected
                            in the Draft Report. Yet, the OIG does not consider the fact that the board during the review
                            audit is not the same board in place today. The board and the Executive Director in place now
                            are responsible for the progress and improvements in the Authority’s operations since 2009-
                            2010. Accordingly, OIG’s sweeping suggestion for removal and replacement is unjustified and
                            improper. (Draft Report, pp. 14-15 (Recommendations 1F and 1H))

Comment 9                  The OIG improperly incorporates findings outside the scope of its purview, i.e., findings related
                            to the Authority's management and use of non-federal funds, in a deliberate attempt to buttress
                            its other findings and to unnecessarily cast a negative impression of the Authority as a whole. In
                            fact, the OIG’s initial draft admitted that “HUD does not have regulatory authority over how the
                            Authority spends these funds” − however, the OIG’s acknowledgement was deleted for purposes
                            of the final draft. (Draft Report, p. 12)

                           The OIG recommends that the Authority repay millions of dollars based on purportedly
                            unsupported payroll expenses, claiming that the Authority improperly limited its production of
Comment 10                  payroll data in the wake of clear written correspondence reflecting the Authority's compliance
Comment 11                  with the scope of the OIG's document request, i.e., for payroll data limited to the last pay period
                            of 2010. Although the Authority maintains backup data to support payroll expenses throughout
                            2009-2010, the OIG did not request such data in conjunction with the audit and, therefore, the
                            Authority should not be accused of withholding such information. (Draft Report, p. 22
                            (Recommendation 2E))

                           The OIG recommends that the Authority repay to HUD thousands of dollars for allegedly
Comment 11                  improper classification of expenses. Such a measure, however, is drastic in the absence of a
                            determination that the expenses were improperly incurred. The appropriate remedy is to correct
                                                                                 − not to repay HUD for errors in
                            any errors in allocation reporting now and in the future
                            allocation reporting. (Draft Report, p. 22 (2B))




                                          HOUSING AUTHORITY OF THE CITY OF PORT ARTHUR
                                        920 DeQueen Blvd. ● P. O. Box 2295 ● Port Arthur, TX 77643
                                     Phone: (409) 982-6442 ● 1(800) 590-6442 ● FAX: (409) 983-7803




                                                         41
                                The Recovery Act Audit required Commissioners to undergo training and education. The Draft
Comment 12                       Report criticizes the Authority for incurring purportedly unsupported expenses to provide such
                                 training and education without furnishing sufficient information regarding the nature and scope
                                 of the allegedly questionable charges. (Draft Report, p. 8)

                                Rather than review the Executive Director's employment agreement for compliance, the OIG
Comment 13                       instead substitutes its own opinion for that of the Commissioners and recommends that certain
                                 provisions of the Executive Director's be voided − something HUD has absolutely no legal
                                 authority to do. (Draft Report, p. 14 (Recommendation 1E)) In addition, the Draft Report states
                                 that the Executive Director is "one of the highest paid in the State" without establishing any
                                 contextual framework whatsoever regarding either the relevance or the accuracy of this
                                 statement, which is clearly intended to arouse suspicion or to challenge the value of the services
                                 that the Executive Director provides. (Draft Report, p. 10)

Comment 2                       The OIG erroneously claims in its “Follow-Up On Prior Audits” section of the Draft Report that
                                 the Authority failed to implement procedures to comply with procurement requirements and
Comment 14                       adopt and implement financial controls. Nothing could be further from the truth. Not only has
                                 the Authority adopted specific procurement controls pursuant to the Recovery Act Audit
                                 findings, but it has also adopted and implement financial controls to ensure the proper routing
                                 and approval of invoices and adequate separation of duties between those requesting goods and
                                 services and those approving payments.

                  The recommendations in the Draft Report are inappropriate for the reasons set forth below.

                           II.             RESPONSE TO THE OIG'S FINDINGS AND RECOMMENDATIONS

                  The following are the Authority's comments to each finding and recommendation:

             FINDING 1: The Authority's Management and Board of Commissioners Failed to Exercise Their Fiduciary
                        Responsibilities.

                  The OIG's allegation that the Authority's management and Commissioners effectively breached their
Comment 15   fiduciary responsibilities is unsupported by the record and, therefore, should be disregarded along with the
Comment 16   corresponding recommendations. After a two year investigation into the Authority's operations, the OIG failed to
             uncover facts supporting actual abuse or fiduciary breaches. As set forth in detail in the responses to the OIG's
             recommendations, the OIG has also failed to establish fiduciary breaches in the wake of the following facts:

Comment 17              (i) The OIG − despite two years of searching − has been unable to identify how, if at all, the
             Authority's annual contribution contract (the "ACC") has been breached. Instead, the OIG defers to the Field
             Office to furnish information so that someone else can evaluate whether a breach has occurred;

                        (ii) The OIG failed to recognize that the board in 2009-2010 is not the same board serving the
Comment 8    Authority today. Today’s board reviewed and approved operational changes to improve procurement and other
             financial controls and, therefore, could not have been found to breach any fiduciary duties. Moreover, the
             resident Commissioner was appointed by the Mayor based on a good faith belief that she met the eligibility
             requirements;




                                               HOUSING AUTHORITY OF THE CITY OF PORT ARTHUR
                                             920 DeQueen Blvd. ● P. O. Box 2295 ● Port Arthur, TX 77643
                                          Phone: (409) 982-6442 ● 1(800) 590-6442 ● FAX: (409) 983-7803




                                                             42
Comment 18
                      (iii)    The OIG has failed to sufficiently support its finding that the Authority made ineligible or
             unsupported purchases using the American Express and other charge cards. Notwithstanding the OIG's failure to
             furnish sufficient information about the vast majority of purportedly questionable charges, even the specific
             examples of "egregious" items are mischaracterized as such− the purchases served a reasonable and necessary
             purpose. Moreover, the charges were paid for with non-federal funds − as the documents produced to the OIG
             clearly indicate − and, therefore, HUD has no jurisdiction to scrutinize them;1

                     (iv)     Without performing a comparative analysis of compensation/benefits of executive directors
Comment 13   statewide, the OIG has not and cannot claim that the Executive Director's package is excessive, which it unfairly
             attempts to claim by noting that he is "one of the highest paid in the State";

                    (v)      The OIG has mischaracterized the computer and other technological equipment that the
Comment 19   Authority purchased for board use as a form of non-cash "compensation." This is untrue. All equipment belongs
             to the Authority and must be returned following the conclusion of service. To the extent that former
             Commissioners still possess Authority equipment, the Authority is expending reasonable efforts to recover all
             Authority property;

Comment 2            (vi)     The OIG fails to recognize that since the Recovery Act Audit, the Authority's management and
             Commissioners have developed and implemented a new procurement policy, hired a new procurement officer,
Comment 14   changed several Commissioners, and is in the process of developing and implementing more formal, written
             policies governing financial controls. Because the Draft Report covered only the 2009-2010 period, the Draft
             Report does not consider any of the foregoing changes and improvements and is, therefore, fundamentally
             flawed.

                      The foregoing points are described in further detail below.

             Recommendation 1A. Coordinate with the Field Office to provide information to the Departmental
             Enforcement Center to enable it to make a determination whether the Authority was in substantial default
             of its annual contributions contract.

                    There has been no evidence to support a finding that the Authority is in substantial default of its ACC.
Comment 17   The OIG spent one full year auditing the Authority and its use of Recovery Act funds. Before the final report
             was ever issued, the OIG returned to spend another year auditing all of the Authority's practices.

                     If, as alleged by the OIG, the Authority was in default of the ACC, one would assume that the OIG could
             have found some evidence over two years of auditing. The fact is that after spending two years and vast sums of
             taxpayer funds, the OIG has not found that the Authority is in default of its ACC. The OIG did not make that
             finding because no such default exists.

                     The Draft Report makes a bold allegation that the Authority's management and Commissioners failed to
Comment 15   exercise their fiduciary responsibilities. The role of a commissioner is to discharge his/her duties in good faith,
             with the care an ordinary prudent person in a like position would exercise under similar circumstances and in a
Comment 20   manner the commissioners reasonably believe to be in the best interest of the authority. See Tex. Bus. Orgs.
             Code Ann. § 22.221 (Vernon 2011)



             1
               While the Draft Report admitted that “while HUD does not have regulatory authority over how the Authority spends these
             funds,” i.e., non-federal funds, the OIG stated during a conference call of the parties that it intended to delete this admission for
             purposes of its final report.




                                              HOUSING AUTHORITY OF THE CITY OF PORT ARTHUR
                                            920 DeQueen Blvd. ● P. O. Box 2295 ● Port Arthur, TX 77643
                                         Phone: (409) 982-6442 ● 1(800) 590-6442 ● FAX: (409) 983-7803




                                                                43
                  A commissioner can fulfill his/her fiduciary duty by paying attention, acting diligently and reasonably. To
Comment 20   act as an ordinary prudent person requires the commissioner to use common sense, practical wisdom and
             informed judgment. If a commissioner reasonably believes that his or her decision is in the best interest of the
             Authority, his/her duty of care is satisfied.

                  Thus, a commissioner's fiduciary duty is satisfied by regularly attending meetings, reviewing the agenda,
Comment 20   reports and information necessary to make an informed decision. Commissioners are entitled to rely on
             information, reports, opinions, and statements from officers, employees, counsel and others. Moreover, the
             business judgment rule states that: "a commissioner is permitted to make a poor decision so long as he/she
             followed the duty of reasonable care".

                  Moreover, following the issuance of the Recovery Act Audit, the Authority promptly engaged outside
Comment 2    consultants to (a) assist it in adopting new policies and procedures and (b) train staff and Commissioners.
Comment 4    Additionally the Authority hired a new procurement officer. Thus, the Authority – both through the Executive
             Director and Commissioners – acted promptly and prudently. To take action now two years after the issues
             raised and after the foregoing changes lacks logical merit.

                  In addition, contrary to the statements in the Draft Report, the Authority fully cooperated during the audit
Comment 6    and, therefore, there was no breach of the ACC based on the Authority’s purported limitation of access to
             documents, staff, or other data sources.

                  On April 15, 2011, the Authority received a letter from Gerald Kirkland, the Regional Inspector General for
             Audit with the OIG. That letter informed the Authority that the OIG would be conducting an audit to evaluate
             the Authority's internal controls over its financial and procurement departments during the period of January 1,
Comment 1    2009 through December 31, 2010. Please note that the audit was coming directly on the heels of Recovery Act
Comment 3    Audit and covers the same timeframe and the same departments in an effort to find similar problems with the
             Authority.

                  On April 29, 2011, the Authority, through its executive director, welcomed the audit, confirmed details of
             the visit and asked for an itemized list of information that the OIG might like so the Authority could gather the
             materials in advance.

                  The Authority proceeded to work cooperatively with the OIG. It provided to the OIG all of the information
Comment 6    requested in the April 15, 2011 request. It also began to provide all the additional information requested by the
             OIG. As of June 17, 2011, the Authority had produced a plethora of information including all of the items
             shown on Exhibit A. In fact, at that time, the only item requested by the OIG which had not been turned over
             was a listing of all Authority employees from 2009 to present. That request was for the name, home address and
             social security numbers of all employees. In an attempt to preserve the employees' rights of privacy, the
             Authority did not disclose the social security numbers, but instead offered to provide the last 4 digits of the
             social security numbers of each employee.

                   Rather than discuss this matter with the Authority and come to a reasonable solution, the OIG instead
             issued a subpoena received by the Authority on August 1, 2011. The subpoena demanded the production of
             numerous items not previously requested. In fact, no fewer than 22 categories of documents were requested. By
             letter dated August 11, 2011, the Authority, responded to the subpoena and pointed out that many of the
             documents requested were already delivered to the OIG, and, as to the social security numbers, beyond the scope
Comment 16   of the investigation and OIG's authority.




                                          HOUSING AUTHORITY OF THE CITY OF PORT ARTHUR
                                        920 DeQueen Blvd. ● P. O. Box 2295 ● Port Arthur, TX 77643
                                     Phone: (409) 982-6442 ● 1(800) 590-6442 ● FAX: (409) 983-7803




                                                         44
                        Subsequently, the Authority spoke with Mr. Kirkland of the OIG in an effort to resolve the issues set
             forth in the subpoena. These discussions occurred on August 17 and 18, 2011. Following these conversations,
             Mr. Kirkland sent a letter to the Authority dated August 18, 2011. That letter clearly summarized the agreements
             reached. Specifically, the Authority agreed:

                       a.   To provide social security information in an alternate format due to privacy concerns;

                       b.   Provide all remaining items in the subpoena on or before September 9, 2011; and

                        c. Advise the OIG of when it has completed its submission of each item requested in the subpoena
             so that both parties would know when an item was complete.

                         By letter dated August 22, 2011, the Authority confirmed the agreement with the OIG making clear
             that all interviews would take place with counsel present. Ultimately, the parties came to a reasonable agreement
             and the Authority had local counsel participate in these interviews. As set forth clearly in the correspondence
             from the Authority, counsel represents the Authority, not individual Authority staff members or management. It
             is necessary for counsel to attend the interviews in order to observe and assess what, if any, issues exist in the
             Authority's procurement/payment practices or policies, if any staff member may be involved in improper
Comment 16   activities and whether the interviewee is furnishing statements which are credible and supportable. Counsel is
             not present to hinder or in any way interfere with the OIG's investigation, nor has counsel done so.

                       The Authority continued to provide all of the information requested by the OIG. By e-mail dated
Comment 2    August 26, 2011, a copy of which is attached as Exhibit B, the Authority provided its updated list of the
             information provided. On September 9, 2011 − the date agreed upon by the OIG – the Authority provided the
Comment 6    spreadsheet attached as Exhibit C and forwarded it to the OIG. This set forth clearly all of the information which
Comment 10   had been requested and its status.
Comment 12
                       On October 15, 2011, the Authority once more responded to the OIG to clarify that all of the
Comment 14   documents that had been requested had been provided. This response clearly set forth that the Authority has
             responded to each and every request.

                       The OIG's requests continued and the Authority continued sending information as requested. The
             Authority provided additional information on October 21, 2011 and November 3, 2011. An additional request
             was delivered on November 9, 2011. On November 14, 2011, the Authority responded.

                        On November the 18, 2011, the Authority responded to a request made on November 14, 2011. This
             request was for water bills, lease amendments and similar information. Then on November 23 and November
             29, 2011, the Authority responded to additional requests from the OIG.

                       The final requests from the OIG came by e-mail on December 7, 2011. These questioned the
             executive director's employment. The documents requested were all provided on December 13, 2011.

                       In sum, the Authority responded to dozens of requests supplying all information in a timely manner.

                       The fact is there was no breach of fiduciary duty. There was no breach of the ACC.

Comment 18   Recommendation 1B. Require the Authority to repay from non-federal funds $8,410 in ineligible charge
             card charges. Repayment should be made to its appropriate program(s), or if a determination can't be
             made as to which program(s) should be repaid, the funds should be repaid to HUD.




                                          HOUSING AUTHORITY OF THE CITY OF PORT ARTHUR
                                        920 DeQueen Blvd. ● P. O. Box 2295 ● Port Arthur, TX 77643
                                     Phone: (409) 982-6442 ● 1(800) 590-6442 ● FAX: (409) 983-7803




                                                         45
                  The OIG has failed to furnish sufficient descriptive information pertaining to the alleged subject credit card
             charges, i.e., date of purchase, store/vendor, description of the purchase, in order for the Authority to review the
             nature and purpose of the charges including, but not limited to, whether and to what extent any portion of the
             charges were paid using federal monies. Accordingly, the OIG has failed to provide sufficient information to
             support Recommendation 1B.

             Recommendation 1C. Require the Authority to support or repay $55,986 in unsupported charge card
Comment 18   charges. Any repayments should be made from non-federal funds and made to the Authority's
             appropriate program(s), or if a determination can't be made as to which program(s) should be repaid, the
             funds should be repaid to HUD.

                    The OIG has failed to furnish sufficient descriptive information pertaining to the alleged subject credit
             card charges, i.e., date of purchase, store/vendor, description of the purchase, in order for the Authority to review
             the nature and purpose of the charges including, but not limited to, whether and to what extent any portion of the
             charges were paid using federal monies. For example, the so-called "egregious items" reflected in Table 1 on
             page 8 of the Draft Report refer to "various" dates of purportedly questionable purchases on Amazon.com,
             Jason's Deli, Lezet Catering, Various florists and Edible Arrangements, and Walmart without reference the
             nature of each purchase. Accordingly, the OIG has failed to provide sufficient information to support the instant
             recommendation.

                    The mere fact that the Authority purchased goods or services in and of itself is not dispositive evidence
             that such purchases were unreasonable or unnecessary. By referencing the foregoing charges as "egregious"
             items, however, the OIG has made a baseless assumption about the nature of the purchases as well as the source
             of the funding for the purchases. The Authority should not be required to repay these amounts to HUD in the
             absence of further discussion to determine whether repayment is desirable and/or necessary and only after the
             OIG furnishes the following information to support its recommendation: i) the specific date(s) of purchase for
             each of the subject charges and ii) a description of each of the purportedly "unsupported" charges. The
             foregoing analysis is also critical because the OIG has identified American Express charges in Table 1 on page 8
             of the Draft Report, which have been erroneously and improperly labeled as "egregious" charges supporting
                                                                                          2
             repayment to HUD when these purchases were paid with non-federal funds − completely outside the scope of
             HUD's jurisdiction. There is no basis whatsoever for repayment of the following purchases reflected in Table 1
             of the Draft Report as the explanation set forth below makes clear:

                         Charge                      Date(s)                    Explanation

                         CASA                        4/7/09 and 3/22/09         The Authority's purchases relate to its
                                                                                community involvement in CASA of
                         $500 and $500                                          Southeast Texas, which provides
                                                                                court appointed special advocates for
                                                                                children. No repayment to HUD is
                                                                                warranted. Payment for the charges
                                                                                were not made using federal funds,
                                                                                but rather, using funds from the Port
                                                                                Arthur Affordable Housing program



             2
                The Authority has reviewed the $1,987 Enterprise Rent A Car charge and has determined that it was a personal purchase
             inadvertently applied to the American Express card by the rental company with whom the Authority has a corporate account.
             The Authority welcomes the opportunity to discuss with the HUD Field office repayment options.




                                           HOUSING AUTHORITY OF THE CITY OF PORT ARTHUR
                                         920 DeQueen Blvd. ● P. O. Box 2295 ● Port Arthur, TX 77643
                                      Phone: (409) 982-6442 ● 1(800) 590-6442 ● FAX: (409) 983-7803




                                                            46
Charge                  Date(s)                Explanation

                                               as reflected by the statement furnished
                                               to the OIG and the corresponding
                                               check details.

Greater Port Arthur     1/26/09 and 1/19/10    No repayment to HUD is warranted.
Membership                                     Payment for the charges were not
                                               made using federal funds, but rather,
$1,000 and $750                                using funds from the Port Arthur
                                               Affording Housing program as
                                               reflected by the statement furnished to
                                               the OIG and the corresponding check
                                               details.

Holiday Inn Port        1/28/09 and 12/22/09   No repayment to HUD is warranted.
Arthur                                         Payment for the charges were not
                                               made using federal funds, but rather,
$1,493 and $2,694                              using funds from the Port Arthur
                                               Affording Housing program as
                                               reflected by the statement furnished to
                                               the OIG and the corresponding check
                                               details. The purchases relate to the
                                               Authority's staff holiday parties for
                                               team building and morale. The
                                               "arrive 12/12/2008 and depart
                                               1/27/2009" description for the charges
                                               is inaccurate. Accordingly to the
                                               Authority, Holiday Inn did not bill the
                                               Authority for the party until January
                                               of 2009 for a party that occurred in
                                               December of 2008 which explains the
                                               bill reference.

Woodlands               9/9/10                 No repayment to HUD is warranted.
Conference Center                              Payment for the charges were not
                                               made using federal funds, but rather,
$4,135                                         using funds from the Port Arthur
                                               Affording Housing program as
                                               reflected by the statement furnished to
                                               the OIG and the corresponding check
                                               details. The charges relate to a board
                                               retreat and workshop to discuss
                                               operations, policies and affiliate
                                               programs.




                 HOUSING AUTHORITY OF THE CITY OF PORT ARTHUR
               920 DeQueen Blvd. ● P. O. Box 2295 ● Port Arthur, TX 77643
            Phone: (409) 982-6442 ● 1(800) 590-6442 ● FAX: (409) 983-7803




                                 47
                   Moreover, the Authority furnished documents reflecting that the foregoing charges were invoiced to non-
             HUD programs. Had the OIG interviewed the Authority staff/personnel regarding the American Express
             statements and supporting detail produced, the Authority would have directed the OIG to the documents
             reflecting the allocation of payments to the various programs. In effect, the OIG has unfairly assumed that
             thousands of dollars in American Express charges were paid with federal monies    − despite documentation
             produced evidencing the contrary− and that the charges the mselves were "egregious" without a reasonable
             investigation of the nature of the charges. Accordingly, the Authority should not be required to repay HUD any
             monies until the nature of each so-called questionable charge that the OIG references in the Draft Report is
             examined as well as the source of the funding to pay for such charges.

             Recommendation 1D. Require the Authority to implement controls over its charge cards, including a
Comment 21   policy which emphasizes that only the authorized cardholder may use an Authority charge card; limits
             the types of purchases or the amount of purchases permitted with the cards; and provides guidelines for
             selecting merchants and vendors, tracking purchases, and card payment and settlement procedures.

                  The Authority is in the process of developing formal, written policies and procedures governing credit
             card usage that follows the guidelines the OIG has recommended. Accordingly, Recommendation 1D is moot.
             In the meantime, the Authority has restricted access and use of the American Express and other cards to
             specific staff who must obtain pre-approval from the Executive Director or the Authority's procurement officer
             to make purchases. Moreover, the Authority requires travel voucher requests and purchase orders are to be
             submitted to the procurement officer in order to track purchases made on behalf of the Authority.

             Recommendation 1E. Determine whether the clause in the executive director's contract permitting
Comment 13   payment for unused sick leave is allowable and if not, declare this section of the employment agreement
             void and require the Authority to reimburse $49,833 to its programs (general fund $9,061, Housing
             Choice Voucher program $25,049, Capital Fund program $5,329, and $10,394 Housing Opportunities).
             Further, the Authority should be required to support that the executive director's leave balances were
             decreased for any leave for which he was paid.

                   As an initial matter, the Draft Report's assertion that the Executive Director is "one of the highest paid in
             the State" without establishing any contextual framework whatsoever regarding either the relevance or
             accuracy of the statement is extraneous, inflammatory and clearly intended to arouse suspicion or criticism and
             nothing more. Accordingly, it should be disregarded in its entirety. Furthermore, the OIG's claim that the
             Executive Director's compensation terms and conditions violate the Authority's personnel policy is wholly
             inaccurate. That personnel policy applies only to the non-exempt employees. The Executive Director, on the
             other hand, has a fully negotiated and agreed upon written contract, the terms of which allow the Executive
             Director to be paid for unused annual and sick leave. The contract was agreed upon by the Commissioners and
             the Executive Director in good faith in an effort to properly administer the Authority. HUD has no legal
             authority to attempt to undo or otherwise modify this contract. Accordingly, this recommendation should be
             rejected as unenforceable.

Comment 8    Recommendation 1F. If HUD does not take control of the Authority, direct the mayor of Port Arthur to
             appoint an eligible resident member to the Authority's board and encourage the mayor to evaluate the
             effectiveness of the board and remove and replace commissioners as appropriate.

                   Recommendation 1F is baseless and should be stricken. As an initial matter, the statement "[i]f HUD
             does not take control of the Authority," is extraneous, inflammatory and inappropriate and, therefore, should be
             stricken or disregarded. There has been no finding whatsoever that the Commissioners have engaged in any
             intentional wrongdoing to warrant the drastic outcome of a HUD takeover. Second, nothing in the Draft Report
             supports the recommendation to "evaluate the effectiveness of the board" or to "remove and replace" any of the




                                          HOUSING AUTHORITY OF THE CITY OF PORT ARTHUR
                                        920 DeQueen Blvd. ● P. O. Box 2295 ● Port Arthur, TX 77643
                                     Phone: (409) 982-6442 ● 1(800) 590-6442 ● FAX: (409) 983-7803




                                                          48
             current Commissioners for purported actions or omissions in the 2009-2010 period. In fact, three out of the five
             current Commissioners were not even on the board during the vast majority of the subject audit review period
             and, therefore, should not be held accountable for the decisions of the board made during that period. Moreover,
             it is simply not HUD's role to direct, influence or otherwise control mayoral appointments. Removal of a
             Commissioner requires an independent examination pursuant to local laws and procedures. Tex. Loc. Gov't
             Code Ann. § 392.041(a) (Vernon 2011). Because the OIG failed to interview any of the Commissioners to
             determine their respective involvement in any of the actions giving rise to the OIG's findings in the Draft
             Report, HUD should not adopt the OIG's sweeping recommendation without first examining whether and to
Comment 2    what extent the OIG's underlying findings are supported at all and what improvements the Authority has made
             since the 2009-2010 audit review period. In addition, no action should be taken against the current
             Commissioners, in whole or in part, because (i) the current board is simply not accountable for the vast majority
             of decisions made during the 2009-2010 period and (ii) has been involved in the review, development and
             implementation of internal financial controls at the Authority in effort to improve its operations.


                  With respect to the resident Commissioner, Xxxxxxx Xxxxxxx, Xx. Xxxxxxx has received assistance from
             the Authority through one of its tax credit properties. It is true that Xx. Xxxxxxx is not a public housing
             resident or a recipient in the voucher program. At the time of her appointment, however, she was selected by the
             Mayor to serve based on a good faith belief that she met the eligibility requirements. To the extent that HUD
Comment 22   determines that Xx. Xxxxxxx does not fulfill the resident Commissioner requirements, HUD's only role should
             be to present its findings to the Mayor, who has the authority to determine the appropriate remedy based on a
             review of the facts. In addition, the Authority acknowledges that it paid the resident Commissioner a monthly
             stipend in the amount of $200 since April of 2010, however, such payments stopped in November of 2010. In
             the meantime, the Authority will consider candidates to serve as a resident Commissioner.

             Recommendation 1G.           Encourage the Authority to recover the various equipment given to the
             commissioners.

                   The OIG claims that the non-cash compensation in the form of mobile phones, wireless air cards, laptops
             computers, net book computers, wireless printers, software and various "peripheral devices" were given to the
Comment 19   Commissioners. The OIG's recommendation that the Authority recover the foregoing items, however, is flawed.
Comment 20   First, the Authority challenges the assertion that the foregoing items constitute "compensation" to the extent that
             these items are reasonable and necessary business expenses that allow the Commissioners to satisfy their duties.
             Second, the OIG has failed to support its assertion that the foregoing items were "given" to the Commissioners −
             let alone identify which Commissioner received what item− ra ther than purchased on behalf of the Authority
             for the Commissioners to use in conjunction with their service on the board. Accordingly, recovery would be
             impossible without further information confirming the identity of the Commissioner and which items they
Comment 23   received. Third, even assuming arguendo that the foregoing items were given to the Commissioners, any
             current, active Commissioners should not be required to return the items until their respective terms of service
             conclude and/or their service terminates so long as they use the equipment to perform board service. As for
             Commissioners who no longer serve the Authority, the Authority acknowledges that certain Commissioners may
             have in their possession laptop equipment belonging to the Authority and will expend reasonable efforts to track
             down the former Commissioners and recover any laptops that may be in their possession.

             Recommendation 1H. Take appropriate administrative action, including possible debarment, against the
             executive director and commissioners.

                  This recommendation is completely unjustified for the reasons set forth in Recommendation 1A and 1F.




                                          HOUSING AUTHORITY OF THE CITY OF PORT ARTHUR
                                        920 DeQueen Blvd. ● P. O. Box 2295 ● Port Arthur, TX 77643
                                     Phone: (409) 982-6442 ● 1(800) 590-6442 ● FAX: (409) 983-7803




                                                          49
             FINDING 2:           The Authority's Management Failed To Enact Financial Controls

Comment 1          The OIG claims that the Authority's management failed to enact financial controls. During the audit
Comment 2    review period − which dovetails the Recovery Act Audit period − the Authority did not operate under a detailed
             procurement policy. Since that time, however, the Authority has (i) hired a new procurement officer with more
Comment 4    than twelve (12) years of procurement experience serving Jefferson County; (ii) reviewed its procurement
Comment 14   practices and developed and implemented a new written procurement policy; (iii) encouraged extensive training
             to improve board governance; and (iv) is in the process of developing and implementing a whole array of other
             detailed financial controls governing, among other things, asset management, travel, credit card usage, and cost
             allocation. The Authority's management and board are committed to tightening up the financial controls and are
             diligently working to do so. Unfortunately, the Draft Report considers only historical data gathered from the
             2009-2010 period and, therefore, discounts any and all improvements and changes since that time, which is
             inequitable and unjust given that the year long audit process failed to yield any finding whatsoever that the
Comment 5    Authority engaged in intentional wrongdoing.

                   Moreover, the Authority is confounded by the OIG's specific findings recommending the possible
Comment 24   repayment of millions of dollars to HUD for allegedly "unsupported" expenditures in the absence of any
Comment 11   information whatsoever to explain its methodology for review along with identifying information about the
             dates, description, and nature of the subject expenditures. Even more perplexing is the OIG's recommendation
             that the Authority repay thousands of dollars to HUD for improperly classified expenditures when the clear
             remedy for a classification error is correction and correct reporting in the future. Finally, the OIG's
             recommendation that the Authority repay nearly $3 million in allegedly "unsupported" payroll expenses to HUD
             is outrageous in the wake of clear evidence establishing that the OIG failed to request the detailed payroll data
Comment 10   that it claims the Authority deliberately refused to produce for the reasons more fully explained below. For all
             of the foregoing reasons, which are set forth in detail below, HUD should not require that the Authority repay
             millions of dollars to the detriment of those it serves.

Comment 21   Recommendation 2A. Adopt and implement a cost allocation plan that includes procedures to ensure it
             reasonably allocates both direct and indirect costs to the programs that benefit from them.

                  The Authority has allocated costs to programs on a proportionate basis. The Authority is in the process of
Comment 25   developing formal, written policies and procedures governing cost allocation that follows the guidelines that the
             OIG has recommended. Accordingly, Recommendation 2A is moot.

             Recommendation 2B. Support or repay from non-federal funds $173,584 in improperly allocated costs to
Comment 11   its various HUD programs.

                  In the absence of further information identifying the nature of the expenditures comprising this amount or
             an explanation to support the finding that these amounts were improperly allocated, the Authority is unable to
             furnish a meaningful response to this recommendation. Nevertheless, the Authority welcomes the opportunity
             to review the purportedly improperly allocated costs with the HUD Field Office to determine whether these
             costs were improper.

             Recommendation 2C. Adopt and implement controls, including written policies and procedures, for the
Comment 21   receipt, review, approval, and payment of vendor invoices and procedures for processing payroll designed
             to prevent, detect, and correct unauthorized changes to timekeeping records.




                                          HOUSING AUTHORITY OF THE CITY OF PORT ARTHUR
                                        920 DeQueen Blvd. ● P. O. Box 2295 ● Port Arthur, TX 77643
                                     Phone: (409) 982-6442 ● 1(800) 590-6442 ● FAX: (409) 983-7803




                                                         50
                  The Authority is in the process of developing formal, written policies and procedures governing payment
             of invoices and payroll processing that follows the guidelines that the OIG has recommended. Accordingly,
             Recommendation 2C is moot.

             Recommendation 2D. Implement access controls over signature stamps, including adopting and
Comment 21   enforcing policies for their appropriate use.

                  The Authority is in the process of developing formal, written policies and procedures governing access
             controls that follows the guidelines that the OIG has recommended. Accordingly, Recommendation 2D is
             moot.

             Recommendation 2E. Support or repay $1,278,151 (general fund $336,095, public housing program
Comment 10   $468,021, Capital Fund program $332,446, and $141,589 Housing Opportunities) in HUD-funded
             portions of its payroll expenses during the review period, including the $102,485 in irregular payroll
             transactions.

                   This recommendation is wholly unjustified. A string of communications reveals that the Authority fully
             complied with the OIG's request for payroll data. According to written correspondence between the parties, the
             OIG had requested − and the Authority provided − payroll information for the last pay period of 2010. To the
             extent that the information was in any way deficient, the Authority was not made aware of the deficiencies nor
             were further demands for additional information made to the Authority during the course of the 2011 Audit.
             Indeed, in response to an October 7, 2011 letter from the OIG requesting "[p]ayroll data for the review period
             as discussed with the Director of Finance on September 23, 2010," the Authority believed and, therefore,
             responded that it had sent the requested information− the December 24, 2010 payroll data − to the OIG via
             Federal Express on October 21, 2011, as per its written response to the OIG's request. To the extent that the
             Authority's production failed to accurately reflect the documents requested in the OIG's discussion with the
             Director of Finance, the OIG failed to bring it to the Authority's attention until the Draft Report. A
             miscommunication − rather than intentional obstruction or neglect − likely explains any purported deficiencies
             in the production of payroll data. The Authority has detailed supporting documentation reflecting its payroll
             transactions in 2009 and 2010. Accordingly, HUD should not require repayment. The Authority should be
             given the opportunity to furnish payroll documents to support its payroll transactions in 2009 and 2010. The
             Authority welcomes the opportunity to review these expenses with the HUD Field Office.
Comment 11
                  With respect to the purported $102,485 in so-called "irregular payroll transactions," a certain percentage
             of the foregoing amount may have constituted annual staff bonuses that were paid in accordance with board
             approval. Had the OIG interviewed the proper Authority personnel regarding these payments, the Authority
             could have explained and provided the board minutes approving the payment of these staff bonuses along with
             other information to further identify the source of the so-called “irregular payroll transactions.”

             Recommendation 2F. Reclassify the improperly classified payroll expenses, revise any reports that were
Comment 21   in error as a result, and record the payroll expenses in the appropriate categories in the future.

                  The Authority intends to review and implement the instant recommendation.

             Recommendation 2G. Reduce or offset future Housing Choice Voucher administrative fees by
             $1,636,647 for unsupported payroll amounts, unless the Authority can provide support.

                  See Response to Recommendation 2E.

             FINDING 3: The Authority Failed To Comply With Procurement Requirements




                                         HOUSING AUTHORITY OF THE CITY OF PORT ARTHUR
                                       920 DeQueen Blvd. ● P. O. Box 2295 ● Port Arthur, TX 77643
                                    Phone: (409) 982-6442 ● 1(800) 590-6442 ● FAX: (409) 983-7803




                                                         51
                  The OIG's finding that the Authority failed to comply with procurement requirements echoes the theme of
             Finding 2− that the Authority's lack of financial controls resulted in its purported failure to maintain
             procurement or contract files− and, therefore , the Authority repeats its response to Finding 2 outlining the
             changes and improvements to the Authority since the Recovery Act Audit.

                  Having said that, however, the recommendations corresponding to Finding 3 are unsupported. Not only
             do the recommendations fail to relate back to specific findings in that section of the Draft Report, but the OIG
             has also failed to furnish sufficient information for the Authority to review its claims and prepare a meaningful
             response. As a result, HUD should take no action based on these recommendations.

Comment 24   Recommendation 3A. Repay HUD from non-federal funds $103,984 in ineligible contract costs charged
             to its public housing Capital Fund program.

                  In the absence of further information identifying the methodology used to determine this specific amount,
             the Authority is unable to furnish a meaningful response to this recommendation, let alone confirm or deny the
             accuracy of the OIG's calculation. This amount is not tied to a specific finding in the Draft Report that sets
             forth the foundation for this recommendation. Accordingly, HUD should not follow this recommendation.
             The Authority welcomes the opportunity to review these expenses with the HUD Field Office.

             Recommendation 3B. To support or repay the appropriate programs from non-federal funds $447,168
Comment 24   in unsupported procurement and contracting costs (general fund $50,212, public housing $208,362,
             DHAP Ike $84,659, Housing Opportunities Fund $34,591, and Capital Fund program $69,344).

                   In the absence of further information identifying the methodology used to determine these specific
             amounts, the Authority is unable to furnish a meaningful response to this recommendation, let alone confirm or
             deny the accuracy of the OIG's calculation. This amount is not tied to a specific finding in the Draft Report that
             sets forth the foundation for this recommendation. Accordingly, HUD should not follow this recommendation.
             The Authority welcomes the opportunity to review these expenses with the HUD Field Office.

Comment 21   Recommendation 3C. Implement procurement and contracting policies and procedures, including a
             contract administration system that ensures it meets HUD requirements and allows it to identify and
             monitor its contracts.

                  The Authority has a detailed procurement policy, which was adopted in May of 2011 in conjunction with
             a third party consultant in response to the OIG's Recovery Act Audit and has been followed to date. In
             addition, the Commissioners and staff have undergone training from third party consultants regarding
             procurement, among other topics. Moreover, the Authority is in the process of developing formal, written
             policies and procedures governing contract administration that follows the guidelines that the OIG has
             recommended. Accordingly, Recommendation 3C is moot.

Comment 21   Recommendation 3D. Perform a detailed inventory of its information technology equipment that
             identifies all equipment owned by the Authority and who is in possession of the equipment.

                 The Authority is in the process of complying with the OIG's recommendation and, therefore,
             Recommendation 3D is moot.

             Recommendation 3E. Reduce or offset future Housing Choice Voucher administrative fees by $254,709
Comment 24   for unsupported procurement and contracting costs, unless the Authority can provide support.




                                          HOUSING AUTHORITY OF THE CITY OF PORT ARTHUR
                                        920 DeQueen Blvd. ● P. O. Box 2295 ● Port Arthur, TX 77643
                                     Phone: (409) 982-6442 ● 1(800) 590-6442 ● FAX: (409) 983-7803




                                                          52
                   In the absence of further information identifying the methodology used to determine these specific
             amounts, the Authority is unable to furnish a meaningful response to this recommendation, let alone confirm or
             deny the accuracy of the OIG's calculation. This amount is not tied to a specific finding in the Draft Report that
             sets forth the foundation for this recommendation. Accordingly, HUD should not follow this recommendation.
             The Authority welcomes the opportunity to review these expenses with the HUD Field Office.

             Recommendation 3F. Support or repay to HUD or FEMA, as appropriate, from non-federal funds
Comment 6    $1,093,220 for unsupported case management services under its DHAP Ike contract.

                   In the absence of further information identifying the methodology used to determine this specific amount,
             the Authority is unable to furnish a meaningful response to this recommendation, let alone confirm or deny the
             accuracy of the OIG's calculation. This amount is not tied to a specific finding in the Draft Report that sets
             forth the foundation for this recommendation. Accordingly, HUD should not follow this recommendation. The
             Authority welcomes the opportunity to review these expenses with the HUD Field Office.

Comment 24   Recommendation 3G. Repay to HUD or FEMA as appropriate, from non-federal funds $349,880 in
             ineligible expenses not included in its contract for DHAP Ike case management services.

                   In the absence of further information identifying the methodology used to determine this specific amount,
             the Authority is unable to furnish a meaningful response to this recommendation, let alone confirm or deny the
             accuracy of the OIG's calculation. This amount is not tied to a specific finding in the Draft Report that sets
             forth the foundation for this recommendation. Accordingly, HUD should not follow this recommendation. The
             Authority welcomes the opportunity to review these expenses with the HUD Field Office.

             FINDING 4: The Authority Improperly Administered Its Capital Funds

                  The Authority challenges the OIG's finding that it improperly administered its capital funds for the
             reasons set forth in detail below.

             Recommendation 4A. Recapture the $469,359 the Authority drew as replacement reserves from its 2006
Comment 26   and 2007 Capital Fund grants.

                   The OIG fails to clearly explain and, therefore, support the basis for the recapture of these amounts. The
             Authority acknowledges that approximately $470,000 was drawn down as replacement reserves in October of
             2009. The replacement reserves, however, have not been spent on Gulf Breeze or the administrative office
             contrary to the OIG's assertions or suggestions otherwise. Indeed, the Authority has earmarked the replacement
             reserves for Carver Terrace in accordance with the original intent for the use of these funds and a developer has
             been selected for this purpose. An amended agency plan will be submitted to outline the need for and use of
             the replacement reserves, which are needed to carry out the Authority’s mission and objectives. The Authority
             welcomes the opportunity to review its amended agency plan with the HUD Field Office. .

             Recommendation 4B. Revise the budget authority for the undrawn replacement reserves of $59,191
Comment 21   from its 2008 Capital Fund grant.

                  An amended agency plan will be submitted to outline the need for and use of the replacement reserves,
             which are needed to carry out the Authority’s mission and objectives. The Authority welcomes the opportunity
             to review its amended agency plan with the HUD Field Office. Moreover, the Authority intends to revise the
             budget pursuant to Recommendation 4B and expenditures will be made on approved capital improvements by
             the deadline, which is June 12, 2012.




                                          HOUSING AUTHORITY OF THE CITY OF PORT ARTHUR
                                        920 DeQueen Blvd. ● P. O. Box 2295 ● Port Arthur, TX 77643
                                     Phone: (409) 982-6442 ● 1(800) 590-6442 ● FAX: (409) 983-7803




                                                          53
             Recommendation 4C. Require the Authority to prepare a detailed plan for the use of its capital funds that
             includes the modernization or demolition and replacement of Carver Terrace.

Comment 21         The Authority is in the process of working on detailed plain for the use of all of its capital funds including
             its plans for Carver Terrace. Accordingly, Recommendation 4C is moot.

                   Moreover, the OIG's assertion that the Authority developed mixed-income finance projects at the expense of
Comment 27   Carver Terrace is completely inaccurate and misleading. The mixed-income finance projects were paid for with
             non-public housing funds and, therefore, the Authority's involvement in those projects is completely independent
             of its plans for Carver Terrace.

                   By way of further response, the Authority disputes the OIG's contention that it failed to prepare 5-year plans
             for its capital funds in the absence of any explanation or reference to regulatory provisions reflecting the
Comment 28   Authority's purported deficiencies, failures or omissions. In addition, the Authority is currently in compliance
             with its expenditure deadlines. Although the Draft Report claims that the Authority failed to meet its expenditure
             deadlines and references the 2006 through 2008 Capital Fund grants, the OIG has failed to delineate which grants
             the Authority to comply with and fails to identify the factual underpinnings supporting its claim. Further
             information is needed in order to review the nature and scope of the Authority's obligations vis-à-vis the specific
             grants in question.

                                                        III.         CONCLUSION

                   In the wake of incontrovertible evidence undermining the OIG's findings and recommendations, HUD
             should not act on the OIG's recommendations and, in particular, the recommendations to repay millions of dollars
Comment 1    to HUD, based on undisclosed, unsupported facts and review methodologies. The 2011 Audit retreads old
Comment 2    ground covered by the Recovery Act Audit. As a result, the Draft Report wholly fails to consider the various
             improvements and changes embodied in the Authority's current operations including, but not necessarily limited
             to, changes in staff, the board, policies, and procedures as well as continuing improvements in the Authority’s
             financial controls. Accordingly, HUD should not make any determinations based on the stale data contained
             therein.

                   If you have any questions or comments, please contact me.

                                                               Sincerely,

                                                               Housing Authority of the City of Port Arthur

                                                               /s/ Seledonio Quesada

                                                               By: Seledonio Quesada
                                                                   Executive Director

             Enclosures

             cc:        Reverend Ronnie Linden (PDF copy via email)
                        Donald J. Lavoy, Deputy Assistant Secretary for Field Operations (PDF copy via email)
                        Daniel Rodriguez, Jr., Director, Public Housing (PDF copy via email)
                        Judith Garza, Director, Program Support Division (PDF copy via email)
                        Craig Clemmensen, Director, Departmental Enforcement Center (PDF copy via email)




                                           HOUSING AUTHORITY OF THE CITY OF PORT ARTHUR
                                         920 DeQueen Blvd. ● P. O. Box 2295 ● Port Arthur, TX 77643
                                      Phone: (409) 982-6442 ● 1(800) 590-6442 ● FAX: (409) 983-7803




                                                          54
                          OIG Evaluation of Auditee Comments

Comment 1   While the scope of this audit overlaps the scope of the Recovery Act audit, the
            objectives were different. The objectives of this audit were to determine whether
            the Authority had sufficient financial and procurement controls to ensure it used
            HUD funds in accordance with laws, regulations, and policies. The prior audit
            was limited to only the funds received under the Recovery Act. This audit was
            performed due to the significant lack of controls identified in the prior audit.

Comment 2   We made minor changes to the report to recognize that the Authority had made
            some improvements. However, the Authority provided no documentation to show
            that it had taken any steps to implement an overall contract administration system
            as required by regulations and its own procurement policy. In addition, it did not
            appear that the Authority had taken any steps to determine what contracts were in
            place at the beginning of the audit. The contract list it provided was generated
            only to fulfill the OIG request for a contract register. Further, OIG requested and
            the Authority provided a procurement policy during the audit. However, that
            policy was not new and the board meeting minutes provided reflected the policy
            was adopted in March 2009. Therefore, the Authority provided no evidence to
            show it was in the process of implementing a new procurement policy or
            procedures.

Comment 3   Generally, audits cover a period of time in the past in order to evaluate
            performance. Our audit began on March 31, 2011, and the scope covered January
            1, 2009, through December 31, 2010, which was appropriate. We also assessed
            current financial and procurement procedures, which were not in writing.
            However, staff explained the unofficial procedures they followed in carrying out
            their duties.

Comment 4   The Authority should have had policies and procedures in place to ensure the
            efficient and effective use of its Federal funding. The Authority’s procurement
            policy contained specific requirements for travel and credit card usage. However,
            Authority management did not ensure the policies were enforced or adhered to.
            Authority management should have procedures to ensure policies currently in
            place are followed, which cannot be cured by having consultants develop new
            policies.

Comment 5   Intent is not required to support audit findings that the Authority mismanaged its
            financial and procurement operations.

Comment 6   In numerous instances the Authority failed to provide requested documentation.
            For example, the Authority failed to provide support for the clients served under its
            contract for DHAP Ike case management services. The Authority did not provide
            the subpoenaed records, even though in its September 9, 2011 memorandum, cited
            in its auditee comments, it asserted that it considered production of the subpoena
            demand complete. In addition, the Authority failed to provide its payroll data for



                                              55
              the review period even though these items were included in a demand letter issued
              to the Authority. Instead, the Authority provided the data for only the last pay
              period of 2010, which it indicated was responsive to OIG's request. It was the
              Authority's responsibility to provide material responsive to the subpoena and
              demand letter, and OIG had no duty to continually request information for which
              the Authority considered its production complete.

Comment 7     The report presents evidence in an unbiased manner and in the proper context to
              conclude that the Authority violated its annual contributions contract. We worded
              our recommendation that HUD declare the Authority in substantial default in the
              manner administratively acceptable to HUD.

Comment 8     Despite the fact that the board of commissioners has experienced turnover, it is
              appropriate to recommend that the mayor evaluate the past and current
              commissioners in order to determine if the problems identified during the audit
              period are still occurring.

Comment 9     It is within the scope of the OIG’s purview to comment on issues pertaining to the
              lack of controls and effective management of the organization as a whole. The
              OIG report addresses the Authority’s use of developer fees paid to the Authority
              by both the CDBG disaster program and the low income housing tax credit
              program. During the audit it was noted that the Authority’s use of these funds did
              not promote its mission or the missions of the programs. Further, during the audit
              the Authority indicated that it considered all developer fees to be non federal
              funds. However, developer fees earned on the CDBG disaster program are
              considered program income and are within the purview of the OIG. Also, the
              Authority’s use of the funds further demonstrated management’s and the board’s
              failure to exercise their fiduciary responsibility and disregard for proper
              stewardship of public funds.

Comment 10 The Authority claimed that OIG only requested payroll data for the last pay period
           of 2010. This is not factual. The OIG requested, and included in its October 7,
           2011 demand letter, the Authority’s payroll data for the review period which was
           January 1, 2009, through December 31, 2010. At no time during the audit did the
           OIG request or agree to accept only one pay period of data. Further, the Authority
           provided only printed payroll reports not the requested electronic data.

Comment 11 The Authority misunderstands the concept of unsupported amounts. During the
           audit resolution process the Authority will have an opportunity to provide HUD
           with support for expenditures reported as unsupported. This process was
           explained during the exit conference. See footnote 2 in Appendix A for a
           definition of unsupported costs.

Comment 12 The report discusses the lack of documentation provided for travel costs reflected
           in the Authority’s American Express statements. During the audit, the Authority
           contended that the majority of the travel was for training. OIG requested



                                               56
              documentation supporting the training and the travel associated with the training.
              However, the Authority did not provide any documentation verifying that anyone
              from the Authority attended training. As stated in the report, the Authority
              provided various course flyers, class agendas, and recent printouts from the
              Internet regarding training classes offered by housing-related entities. This type of
              documentation did not support attendance by anyone at the Authority nor did it
              support the travel charged on the American Express was for training purposes.
              Further, the Authority’s comments indicate that the training taken was based on the
              previous audit report. However, the previous audit report was issued in 2011
              which was after the audit period.

Comment 13 The Authority asserted its personnel policy applied to only non-exempt employees;
           however, the policies it provided OIG at the exit conference did not contain that
           restriction. Therefore, the executive director’s contract did not comply with the
           Authority’s personnel policy, and was therefore unallowable. We removed the
           phrase in the recommendation concerning HUD voiding the ineligible section of
           the contract. We removed the sentence concerning HUD’s statement that the
           executive director was one of the highest-paid in the State.

Comment 14 OIG specifically requested financial and procurement policies and procedures.
           Authority staff responded that there were no financial policies and procedures in
           place. It was further stated that the only policy that was even being considered by
           the board at the time was an accounts payable policy that had not been approved
           by the board. OIG requested a copy of the draft policy; however, it was never
           provided. At the beginning of the audit, the Authority provided a procurement
           policy; however, the policy was not new, it was the policy that was in effect during
           2009. It had no procedures designed to ensure it complied with its policy.

Comment 15 The audit report contains significant evidence that the Authority management and
           the board failed to exercise their fiduciary responsibility. The lack of controls,
           policies, procedures, and documentation reflects an overall indifference to their
           responsibility to its residents, the public, and the Federal Government.
           Management and the board knew of the deficiencies because of previous financial
           statement and OIG audit findings. Yet, they failed to take sufficient corrective
           action.

Comment 16 The Authority mischaracterized the audit as an investigation. It was not an
           investigation but an audit conducted in accordance with generally accepted
           government auditing standards.

Comment 17 The report unequivocally concluded that the Authority violated its annual
           contributions contract. We worded our recommendation that HUD declare the
           Authority in substantial default in the manner administratively acceptable to HUD
           because only HUD has the authority to make such a declaration. Also see
           comment 15.




                                                57
Comment 18 In keeping with our general practice, we will provide detail information to HUD
           on the ineligible and unsupported amounts. The items included in the $36,752 of
           egregious charges were intended as an example of the types of items charged to the
           Authority’s American Express card. The Authority paid for some of the items
           with Federal funds and some with funds from Port Arthur Affordable Housing, and
           it failed to document the source of funds for some of the charges. In reviewing the
           American Express charges, OIG determined which funds were used and
           recommended support or repayment of amounts paid with Federal funds. Since
           not all of the amounts in the table were Federal funds, they are not all included in
           the ineligible or unsupported amounts in the report. Further, identification of the
           $1,987 for the rental car for the resident commissioner in the Authority’s response
           as a personal purchase of the commissioner is further evidence of the lack of
           controls, policies, and procedures at the Authority. This expense was incurred in
           November 2010; however, the Authority did not identify it as a personal expense
           of the commissioner until May 2012 when it provided its comments to this audit
           report. In addition, the commissioner should not have been authorized to incur this
           type of expense on the Authority’s charge card.

Comment 19 The OIG identified almost $33,000 in equipment provided to the commissioners.
           During the audit OIG questioned what happened to the equipment when the
           commissioners completed their terms. The Authority's attorney responded, "As
           with the purchase of the tablets, this computer equipment is generally not worth
           much once a commissioner leaves the board, and, therefore, in the past, the
           Commissioners have been allowed to retain possession of this equipment." The
           Authority's response to the draft report indicated that all equipment must be
           returned, which is contrary to the response its attorney provided during the audit.
           It is appropriate that the Authority implement the recommendation to recover the
           equipment.

Comment 20 The Authority argues, “A commissioner can fulfill his/her fiduciary duty by paying
           attention, acting diligently and reasonably. To act as an ordinary prudent person
           requires the commissioner to use common sense, practical wisdom and informed
           judgment. If a commissioner reasonably believes that his or her decision is in the
           best interest of the Authority, his/her duty of care is satisfied. Thus, a
           commissioner’s fiduciary duty is satisfied by regularly attending meetings,
           reviewing the agenda, reports and information necessary to make an informed
           decision.” Further, the Authority challenges the finding that the equipment
           constituted compensation to the extent that the items were reasonable and
           necessary business expenses that allowed the commissioners to satisfy their duties.

              The Authority’s statements that the commissioners can fulfill their duties by
              attending meetings, reviewing agendas, reports and information conflicts with the
              assertion that the commissioners need a multitude of electronic equipment and
              accessories. In addition, it is not clear how purchasing equipment for the
              commissioners and paying for entertainment videos for the resident commissioner
              were prudent, reasonable, or enabled the commissioners to satisfy their duties.



                                               58
Comment 21 The Authority stated that it will or is in the process of implementing corrective
           actions for nine of the recommendations. It argues that seven of the nine
           recommendations were "moot." However, that is not the case. It is appropriate to
           recommend HUD require the Authority to take steps to correct or address
           weaknesses or problems identified in the audit report. This enables HUD to verify
           that the Authority is addressing the issues and taking appropriate steps to
           strengthen its processes and recordkeeping requirements. This is especially
           important since the Authority has a history of responding to financial statement
           audit findings by stating that corrective actions have been implemented when they
           had not. HUD must oversee the implementation of the recommendations to ensure
           the Authority follows through with its pledged actions.

Comment 22 As discussed in the finding, the Authority did not have a qualified resident
           commissioner, and it is the mayor’s responsibility to appoint one. The
           compensation paid to the resident commissioner violated State law.

Comment 23 It is not OIG’s responsibility to determine to whom the Authority provided the
           equipment. The Authority’s documentation did not specify a particular
           commissioner; it only indicated that the equipment was for a commissioner. The
           Authority should provide documentation to HUD to show which commissioner
           received the equipment identified in the report. Also see Comment 19.

Comment 24 In keeping with our general practice, we will provide detailed information to HUD
           on the ineligible and unsupported amounts.

Comment 25 The Authority did not allocate costs on a proportional basis. The Authority’s
           general ledger and statements by its finance director reflected otherwise.

Comment 26 The report does not state that the funds were spent on Gulf Breeze, only that the
           funds were budgeted for Gulf Breeze. The Authority provided no documentation
           designating the replacement reserves for Carver Terrace. This demonstrates that
           the Authority did not properly plan for its capital fund. Recapturing the funds will
           allow HUD to control the funds until the Authority has a plan for how it is going to
           spend the reserves. We added clarifying language to this section.

Comment 27 The finding does not intend to indicate that public housing money was used on the
           mixed finance projects. However, the Authority used its other resources
           (personnel, efforts, time, etc.) in order to develop the mixed finance projects at the
           expense of Carver Terrace.

Comment 28 As described in the report, the Authority is required to generate a 5-year plan
           detailing the physical and management improvement needs for the Authority as a
           whole and all of its developments, including preliminary estimates of the total cost
           of the improvements and a plan to carry them out. The Authority did not provide
           the required level of detail.



                                                59
